<html>
<title> - THE NEED TO REAUTHORIZE THE SEPTEMBER 11TH VICTIM COMPENSATION FUND</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  THE NEED TO REAUTHORIZE THE SEPTEMBER 11TH VICTIM COMPENSATION FUND

=======================================================================

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, AND CIVIL JUSTICE

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, June 11, 2019


                           Serial No. 116-26


         Printed for the use of the Committee on the Judiciary
         

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
               Available via: http://judiciary.house.gov
                              
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
44-133                    WASHINGTON : 2021                 



                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
               MARY GAY SCANLON, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          DEBBIE MUCARSEL-POWELL, Florida
THEODORE E. DEUTCH, Florida          VERONICA ESCOBAR, Texas
KAREN BASS, California               STEVE CHABOT, Ohio
CEDRIC L. RICHMOND, Louisiana        LOUIE GOHMERT, Texas
HAKEEM S. JEFFRIES, New York         JIM JORDAN, Ohio
DAVID N. CICILLINE, Rhode Island     KEN BUCK, Colorado
ERIC SWALWELL, California            JOHN RATCLIFFE, Texas
TED LIEU, California                 MARTHA ROBY, Alabama
JAMIE RASKIN, Maryland               MATT GAETZ, Florida
PRAMILA JAYAPAL, Washington          MIKE JOHNSON, Louisiana
VAL BUTLER DEMINGS, Florida          ANDY BIGGS, Arizona
J. LUIS CORREA, California           TOM MCCLINTOCK, California
SYLVIA R. GARCIA, Texas              DEBBIE LESKO, Arizona
JOE NEGUSE, Colorado                 GUY RESCHENTHALER, Pennsylvania
LUCY MCBATH, Georgia                 BEN CLINE, Virginia
GREG STANTON, Arizona                KELLY ARMSTRONG, North Dakota
MADELEINE DEAN, Pennsylvania         W. GREGORY STEUBE, Florida

        PERRY APELBAUM, Majority Staff Director & Chief Counsel
                BRENDAN BELAIR, Minority Staff Director

  SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, AND CIVIL LIBERTIES

STEVE COHEN, Tennessee, Chair        MIKE JOHNSON, Louisiana, Ranking 
JAMIE RASKIN, Maryland                   Member
ERIC SWALWELL, California            LOUIE GOHMERT, Texas
MARY GAY SCANLON, Pennsylvania       JIM JORDAN, Ohio
MADELEINE DEAN, Pennsylvania         GUY RESCHENTHALER, Pennsylvania
SYLVIA R. GARCIA, Texas              BEN CLINE, Virginia
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North Dakota
SHEILA JACKSON LEE, Texas

                       JAMES PARK, Chief Counsel
                     PAUL TAYLOR, Minority Counsel
                     
                     
                            C O N T E N T S

                              ----------                              

                         Tuesday, June 11, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Mike Johnson, Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     3
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     5
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     8

                                WITNESS

The Honorable Carolyn B. Maloney, Member of Congress.............     9
  Oral Testimony.................................................     9
  Prepared Testimony.............................................    11
The Honorable Peter T. King, Member of Congress..................    12
  Oral Testimony.................................................    12
  Prepared Testimony.............................................    16
Rupa Bhattacharyya, Special Master, September 11th Victim 
  Compensation Fund..............................................    17
  Oral Testimony.................................................    17
  Prepared Testimony.............................................    18
Jacqueline Moline, Chair, Occupational Medicine, Epidemiology and 
  Prevention, Donald and Barbara Zucker School of Medicine at 
  Hofstra/Northwell..............................................    26
  Oral Testimony.................................................    26
  Prepared Testimony.............................................    29
Lila Nordstrom, 9/11 Survivor....................................   101
  Oral Testimony.................................................   101
  Prepared Testimony.............................................   103
Anesta Maria St. Rose Henry, Widow of Candidus Henry, 
  Construction Worker and 9/11 Responder.........................   106
  Oral Testimony.................................................   106
  Prepared Testimony.............................................   107
Thomas J. Mohnal, Special Agent, Federal Bureau of Investigation 
  (Ret.) and 9/11 Responder......................................   108
  Oral Testimony.................................................   108
  Prepared Testimony.............................................   110
Michael O'Connell, Lieutenant, Fire Department of New York (Ret.) 
  and 9/11 Responder.............................................   113
  Oral Testimony.................................................   113
  Prepared Testimony.............................................   115
Luis Alvarez, Detective, New York Police Department (Ret.) and 9/
  11 Responder...................................................   116
  Oral Testimony.................................................   116
  Prepared Testimony.............................................   117
Jon Stewart, Advocate for 9/11 Responders and Survivors..........   118
  Oral Testimony.................................................   118
  Prepared Testimony.............................................   120

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Item for the record submitted by the Honorable Sheila Jackson 
  Lee, Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................   137

 
                      THE NEED TO REAUTHORIZE THE
                         SEPTEMBER 11TH VICTIM
                           COMPENSATION FUND

                         Tuesday, June 11, 2019

                        House of Representatives

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                       Committee on the Judiciary

                             Washington, DC

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Steve Cohen 
[chairman of the subcommittee] presiding.
    Present: Representatives Cohen, Nadler, Raskin, Scanlon, 
Dean, Garcia, Escobar, Jackson Lee, Johnson, Collins, Gohmert, 
Jordan, Armstrong, and Cline.
    Staff Present: David Greengrass, Senior Counsel; John Doty, 
Senior Advisor; Lisette Morton, Director Policy, Planning, and 
Member Services; Madeline Strasser, Chief Clerk; Moh Sharma, 
Member Services and Outreach Advisor; Susan Jensen, 
Parliamentarian/Senior Counsel; James Park, Chief Counsel; Will 
Emmons, Professional Staff Member; Paul Taylor, Minority 
Counsel; and Andrea Woodard, Minority Republican Professional 
Staff Member.
    Mr. Cohen. The Judiciary Committee's Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties will come to 
order.
    Without objection, the chair is authorized to declare a 
recess of the Subcommittee at any time.
    I welcome everyone to today's hearing on the need to 
reauthorize the September 11th Victim Compensation Fund. I will 
now recognize myself for an opening statement.
    September 11, 2001 was among the deadliest days in American 
history with almost 3,000 lives lost in New York, at the 
Pentagon, and in Shanksville, Pennsylvania, because of the 
terrorist attacks on the United States on that horrible day.
    The casualty number is much higher than oft-cited 
statistics tell us. The fact is that we really do not know the 
full casualty count from the events of that day even now almost 
18 years later. That is because, years after 9/11, tens of 
thousands of first responders who ran toward the raging 
infernos and toxic clouds unleashed on that day, as well as 
Members of the community surrounding the 9/11 crash site in New 
York, continue to develop and suffer from cancers and other 
severe diseases that have prematurely ended their lives or 
undermined their employment and life prospects. Indeed, by one 
estimate, up to 400,000 people may be at risk of developing 9/
11-related illnesses, and many of these people may not even be 
aware of that fact.
    In recognition of this continued suffering, Congress, among 
other things, reopened the September 11th Victim Compensation 
Fund in legislation passed in 2010, signed into law in 2011, 
and authorized the Victims Compensation Fund for 5 years. 
Congress established the original fund just 1one days after 9/
11 to provide compensation for those who were physically 
injured by the attacks and for relatives of those who were 
killed. That original fund operated from 2001 to 2004 and 
awarded over $7 billion.
    When it reopened the fund in 2011, Congress expanded the 
eligibility criteria to include workers who assisted with 
debris removal in the months after the attacks. Congress then 
reauthorized the fund in 2015 for an additional 5 years and is 
currently set to expire in December of 2020.
    In reopening the Victims Compensation Fund, Congress was 
addressing the fact that responders and recovery workers 
reported significant higher risks of lower and upper 
respiratory diseases than the general population within 5 years 
of the 9/11 attacks, and 70 percent of the 9/11 first 
responders suffer from new or worsened respiratory symptoms in 
that time period.
    These diseases only worsened in severity over time as they 
developed into interstitial lung disease and sarcoidosis 
conditions of which lung function substantially deteriorates 
preventing adequate oxygen from entering the bloodstream and 
vital organs and leading to additional life-threatening 
conditions like pulmonary disease.
    Now, we are seeing that one of our witnesses, Dr. 
Jacqueline Moline, characterizes as a third wave of 9/11-
related illnesses, including increased cancer rate among first 
responders and community Members since 2015.
    Part of that reason is that cancer can have a very long 
latency period, meaning the symptoms of the disease may not 
manifest in a person for decades after the initial exposure to 
carcinogens. In the face of these trends, the fund, which is 
overseen by the Department of Justice, has done an admirable 
job. As of April 30, 2019, the Victims Compensation Fund 
received nearly 50,000 claims, found 24,000 claimants to be 
eligible for compensation--it is about half--and made 
additional or revised awards for 28,000 claims; awarded a total 
of than $5 billion as of April 30.
    Unfortunately, the fund is now facing a funding crisis, one 
that is not of its own making. When Congress reauthorized the 
Victims Compensation Fund in 2105, it prohibited the fund from 
spending more than the appropriated $7.4 billion to pay awards 
in administrative expenses.
    By law, the fund must annually reassess its policies and 
procedures to assure, among other things, that it does not 
exceed the spending cap.
    Yet, since 2015, the Victims Compensation Fund has seen an 
increase in claims driven by various factors, including a 
marked increase in cancer claims and claims from the survivor 
population. The result is that, effective February 25, 2019, 
the fund was forced to institute substantial cuts to pending 
and future awards: 50 percent cuts for claims on or before 
February 1, 2019, and 70 percent cuts for claims filed 
thereafter.
    Congress has proposed a solution, H.R. 1327, the Never 
Forget the Heroes: Permanent Authorization of the September 
11th Victim Compensation Fund Act, would authorize the VCF 
until 2090 to ensure that sufficient funds are available to pay 
future claims, require payment of any award amounts that were 
cut, and make a number of other useful changes. By enacting 
this legislation, we will not have to force 9/11 responders and 
survivors to come begging to Congress every 5 years to step up 
and do the right thing.
    I am proud to be a cosponsor of this bill. I am proud 
because this is not simply a New York event. I see Mr. Zeldin 
is here, who represents part of New York and is showing his 
interest, as well as Mrs. Maloney and Mr. King. Mr. Nadler has 
been a champion of this issue and as chairman of this Committee 
and primarily responsible for this hearing. This was an 
American tragedy, an American event, and I recall it so 
vividly.
    I was in New York within a month and going to a baseball 
championship game and ran into Guiliani, who, at the time, was 
a friendly guy, and got me somehow down to 9/11. I went down 
there and had my mask, and you name it, walked around in the 
debris.
    I commend all of you for what you did. You put yourself and 
your life at risk. We know that, and you need to be 
compensated. You are American heroes.
    Representatives Maloney and King have introduced the bill 
that will affect the work on behalf of 9/11 responders and 
survivors. I thank them. I thank Representative Collins for his 
cosponsorship of the bill. I am thankful for the responders for 
their service and sacrifice for our country. Grateful to them, 
the survivors, and all the witnesses in to testify before us 
today.
    This is a bit unusual, because this is my Subcommittee 
which I chair, and I am chairing it now. It is a special moment 
for Mr. Nadler. This is an issue that is very close to him and 
his constituents. For that reason, I will surrender the chair 
to him to oversee this meeting, which is appropriate. I guess 
this is the time that I will do it. I don't know if it is the 
right time, but this is the time I am doing it.
    Well, I will recognize Mr. Johnson then, and then I am 
surrendering the chair.
    Mr. Johnson of Louisiana. All right. Thank you.
    Thank you, Mr. Chairman and Mr. Chairman.
    The tragic events of September 11, 2001, in New York, in 
Pennsylvania, and Virginia took innocent lives on American soil 
on a scale not seen since the attack on Pearl Harbor. It also 
unified the country as brave first responders searched for 
bodies and headed a massive recovery effort.
    In New York, the first responders did this amidst a 
smoldering pile of over 220 stories of building crushed into a 
dense accumulated mountain of steaming hot toxic chemicals that 
burned for months. My wife and I visited that site just a month 
after, and it was still seemingly on fire.
    Many sacrificed their own health in their efforts to help 
their fellow Americans in and around debris that included two 
steel beams in the shape a cross, which now rests in the 
National September 11 Memorial and Museum.
    Just as that cross stood as a sign of hope for so many, so 
too do our programs to help take care of those to whom we owe 
our deepest gratitude.
    After 9/11, a federally funded program was created to 
compensate and pay medical expenses for those who developed 
respiratory and other illnesses related primarily to the 
rehabilitation of the site of the former World Trade Center. 
Payments made from the fund are administered by a special 
master who has announced that the fund is running out of money 
and with some current and future claims that are yet unpaid. 
That fund was authorized in the manner in which all Federal 
programs should be authorized, namely for a limited duration 
within which time Congress is able to periodically revisit the 
program's operation and fiscal solvency before potentially 
reauthorizing and funding it further as it goes forward into 
the future.
    The special master who runs this program and who is with us 
here today is a very well regarded public servant, and I am 
aware of no problems with the program's Administration. We have 
a lot of confidence in this program.
    So, I support reauthorizing the program in a manner that is 
fair to everyone. This is unquestionably the right thing to do, 
and I expect that this bill will pass with broad bipartisan 
support.
    I am personally myself the son of a firefighter who was 
critically burned and permanently disabled in the line of duty 
back in 1984. And I know the sacrifices and the needs of these 
heroes and their families personally. In addition to my dad 
being burned over 80 percent of his body, third-degree burns, 
he inhaled toxic chemicals in a fire, and he suffered the 
remaining 32 years of his life as a result of that tragedy.
    The only concern we have here, and you will hear people 
talk about it, is just the latest proposal to reauthorize the 
program, H.R. 1327, creates an unlimited authorization for 
appropriations for the fund and extends it until the year 2090. 
The Congressional Budget Office isn't able to determine the 
cost of such an extended program. Of course, its rules limit it 
to predicting costs just 10 years out.
    So, right now, we have a $22 trillion Federal debt. That is 
just the thing that keeps us up at night. It makes us have to 
address these issues as responsibly as possible. I know 
everyone here understands and feels that burden.
    Our objective, of course, is fairness to all. By all, we 
mean all Americans, including first responders nationwide who 
have heeded the call to service through the smoldering remains 
of terrorist attacks but also through the dense wildfire smoke 
of California and the wreckage following a Kansas tornado and 
the floods in Louisiana and all other disasters and tragedies 
everywhere.
    We have to approach the reauthorization of this fund today 
in the same way we would approach any fund designed to 
compensate first responders nationwide and other similar 
circumstances in a way capable of making future funds available 
for future heroes as well.
    With that, we look forward to hearing from all of our 
witnesses here today, including those who work so selflessly 
under very dangerous conditions to help our Nation heal.
    I yield back the balance of my time.
    Chairman Nadler. [Presiding.] Thank you, Mr. Johnson.
    I now recognize myself for an opening statement.
    Eighteen years ago, on September 11, 2001, Osama bin Laden 
orchestrated the deadliest terrorist attack in American 
history, killing almost 3,000 people in a single day and 
wounding thousands of more. In New York City, the attack 
happened in my district. The attacks created an environmental 
nightmare when the Twin Towers collapsed in Lower Manhattan. 
Hundreds of tons of contaminates poured onto the streets and 
covered first responders, residents, office workers, and 
students in a cloud of dust.
    When many of us think of 9/11, we think of planes flying 
into the Twin Towers or we see the towers collapsing. There 
other pictures that day that captured the gravity of the loss, 
the scale of the destruction, and the massive amounts of toxins 
that were released into the air on that Tuesday morning. I want 
to share those images with you today.
    As you can see, if you look at the jumbotrons, I suppose. 
As you can see, New York City was covered in toxic ash. The air 
was full of debris, dust, and other deadly toxins. Many of my 
constituents were forced to flee their homes. Firefighters, 
police, and rescue and recovery workers from around the country 
came to our aid, working in horrible dangerous conditions to 
help one another and help the United States get back on its 
feet.
    I was in Washington with my wife when the attacks began, 
and we immediately rushed to return to New York City by train 
that day since all flights had been grounded. What sticks with 
me from that day was eerie silence that greeted us when we 
stepped out of Penn Station. The city seemed empty. Nothing 
moving. No people. No cars. No buses. No subway trains. 
Nothing. The only thing that was there was a strange odor that 
hung in the air.
    The next day, on September 12th, I walked the streets of 
Lower Manhattan through the rivers of ash and debris, and I saw 
the thinkable damage. I was there with then-Mayor Giuliani. We 
were soon joined by then-President George Bush, then-Senator 
Hillary Clinton, and Senator Chuck Schumer. There was no 
question in our minds that we must work together in a 
bipartisan manner to do what it took to get New York back on 
its feet, to get the country moving again, and to get help for 
everyone affected by the attacks.
    Within days following the attack, a problem arose. The EPA 
insisted, contrary to ample evidence, that the air in Lower 
Manhattan in Brooklyn was safe to breath. That was not true. It 
was an untruth that caused many thousands of people to become 
sick and, tragically, for many of those same people to die. It 
was an untruth I worked for many years to expose. Because as we 
knew even then, the air was not safe to breathe. In fact, it 
was deadly.
    Thousands of responders from all over the country worked on 
the site. Thousands and thousands of responders and workers and 
residents were exposed to horrible toxins and were not provided 
with protective equipment. The Federal Government did not step 
in to conduct a proper comprehensive cleanup of the schools, 
offices, and residents in Lower Manhattan. They told my 
constituents to clean up asbestos and other toxins from their 
apartments with a damp cloth and no protective equipment.
    Today, as a result of the attacks and as a result of those 
lies, more than 95,000 responders and survivors are sick. It 
was for those tens of thousands of brave selfless and innocent 
responders and survivors that Congress came together in 2010, 
after years of struggles and negotiations, to pass the James 
Zadroga 9/11 Health and Compensation Act and to fulfill our 
moral obligation, as Lincoln said, to care for him who shall 
have borne the battle and for his widow and his orphan.
    The Zadroga Act established a national health program to 
care for those made sick by exposure to toxins in the days, 
weeks, and months after the 9/11 attack. It also reopened the 
Victim Compensation Fund, the VCF, to provide support for sick 
responders or survivors.
    As the programs are set to expire in 2015, Congress once 
again came together in a bipartisan manner and reauthorized 
them. We made the health program essentially permanent and set 
the expiration date far into the future, the year 2090, 
ensuring that all those affected by the attacks on September 
11, 2001, would have the healthcare they need for as long as 
they need it. The 2015 reauthorization only extended the VCF 
for 5 years.
    Today, the programs are mostly working. Residents of 433 
out of 435 congressional districts receive care through the 9/
11 health program. More than 28,000 individuals representing 
all 50 States have been found eligible for compensation from 
the VCF. More than $5.1 billion has been awarded.
    Our actions as a Congress have touched many lives, provided 
comfort to the sick, and helped families struggling with the 
loss of a loved one to pay the bills and send children to 
college. We know all too well that people who are sick now will 
only get sicker. Unfortunately, many will die. Those who are 
not sick now may become sick years in the future as diseases 
surface after long latency periods. We are already seeing the 
impact that long delay cancers have had. Nearly 11,000 
responders and survivors have been diagnosed with cancer to 
date, a number which will only go up. It is clear the 5-year 
reauthorization was not nearly long enough.
    Further, as the number of sick responders and survivors 
continues to rise, the limited resources Congress provided to 
the VCF have been strained. Now, because of the greater number 
of sick people anticipated, the thousands of sick responders 
and survivors are facing up to 70 percent cuts in compensation 
because the money is running out. These cuts were certainly not 
intended by Congress, and we know that the Administration and 
the special master are not making these cuts maliciously. 
Rather, the VCF is working to keep the funded--I am sorry--is 
working to keep the program funded as long as possible to give 
every sick responder and survivor at least some compensation.
    That does not mean we can simply accept these cuts and 
allow the program to expire when so many more men, women, and 
young adults will need compensation and care. That is what 
brings us here today. A 70-percent cut in compensation to 
victims of 9/11 is simply intolerable, and Congress must not 
allow it. Congress also must not allow the VCF to expire while 
people are still sick and the World Trade Center Health Program 
is still operational. The time has come for us to act.
    In the past, I would have had to call upon the Committee 
chairman to call a hearing or to schedule a markup on 
legislation to address these problems. Today, as chairman of 
the Judiciary Committee, I am able to convene this hearing and 
to announce that we will not wait to mark up this legislation. 
We will hold a markup of this legislation tomorrow.
    There are two moral imperatives that dictate why we must 
act. Number one, it was America that was attacked on 9/11, not 
just New York or Washington, DC.
    Number two, it was the Federal Government that bears some 
responsibility because it told everyone it was safe to return 
to Lower Manhattan when it knew that it was not. Now the 
Federal Government must bear the burden to care for and support 
the people affected by the September 11 attacks and their 
aftermath.
    Again, I am proud to work in a bipartisan manner with my 
long-time colleagues Representatives Carolyn Maloney and Peter 
King and Senators Kirsten Gillibrand and Chuck Schumer to 
reauthorize these critical programs. I am pleased that we also 
have the support of Senator Cory Gardner and our very own 
Ranking Member of the full Judiciary Committee, Representative 
Doug Collins. In fact, we have more than 300 bipartisan 
cosponsors of this bill in the House. I want to thank the 
people in this room for everything they have done to get so 
many congressional cosponsors so quickly. I urge all of my 
colleagues to work with us and support a reauthorization and to 
move this bill through Congress to the President's desk as 
quickly as possible.
    Just as we stood together as a Nation the days following 
September 11, 2001, and just as we stood together in 2010 and 
2015 to authorize and fund these vital programs, we must now 
join forces one more time to ensure that the heroes of 9/11 are 
not abandoned when they need us most. We must sustain the VCF. 
We must protect the heroes and survivors of 9/11. We must pass 
the Never Forget the Heroes Act of 2019, and we will.
    Before I yield back, I want to add one more thing. For many 
people in this country, and perhaps even people on this 
committee, 9/11 ended that day. Perhaps they light a candle in 
church every year on the anniversary. Perhaps they pray for the 
victims. For our panel of witnesses today, for many people in 
the audience, for Congresswoman Maloney, for Congressman King, 
and for me and my staff, 9/11 never ended. We live every day 
with the events of that morning and the impact of the decisions 
made by the Federal Government in the aftermath.
    While I know it can be frustrating watching a body as large 
as the U.S. Congress work its will, when we do act, we can 
bring tremendous resources and the strength of the entire 
Federal Government to bear on a problem, and we can improve the 
lives of so many. It is my hope and my sincere wish that 
Congress will Act swiftly to stop these devastating cuts, to 
extend this program, and to provide as much peace of mind as we 
possibly can to those who continue to suffer from the 9/11 
attacks. We will never forget.
    I yield back.
    It is now my pleasure to recognize the Ranking Member of 
the full committee, the gentleman from Georgia, Mr. Collins, 
for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman. This is a day in 
which we do come together in this committee, I think with a 
common purpose. I want to thank Congresswoman Maloney and 
Congressman King. Also my friend Lee Zeldin, who has a number 
of these folks in his district, along with you, Mr. Chairman, 
who have been carrying this fight. Because as we look across 
what are talking about here, we have to remember that, on that 
day, depraved Islamic terrorists designed September 11 attacks 
to murder as many innocent Americans as possible either on that 
day or in the future is what happened.
    Those attacks killed almost 3,000 people and left a 
smoldering pile of toxic debris in New York. In the wake of 
such depravity, thousands of rescuers responded with nobility 
and courage. First responders scaled smoldering piles of 
debris, exhumed victims with dignity, and restored Ground Zero 
to its current place in the center of a loving, resilient 
community, a place that includes the National September 11 
Memorial.
    Even yesterday, this lives on, as I heard a story just 
yesterday that they had identified another victim 18 years 
later. No one is forgotten. No one is left behind. That is what 
our country symbolizes.
    It is also fitting Congress do more than memorialize it. We 
must help take care of those heroes. The 9/11 first responders, 
like all first responders, deserve to have their sacrifices 
recognized. This program will mitigate the damage these public 
servants and their families experienced as a direct result of 
their sacrifice on behalf of others.
    Legislation has been introduced to reauthorize the current 
September 11 Victims Compensation Fund. While the fiscal impact 
of this legislation isn't clear at the moment, what is clear is 
our collective duty to see that our first responders are 
treated fairly in accordance with what they have already given 
to a grateful Nation.
    I must also say on a personal note: You never forget. I 
carried the images that I am proud Chairman actually showed 
this morning with me when I was in Iraq. For the time I served 
there was a reminder of the service that had already been 
given, not knowing on that morning what would happen but 
knowing on that morning it will not be forgotten. What we are 
seeing today is--I can remember back as a chaplain, what I 
serve as in Air Force, and still do, 19 years later, is I 
remember Chaplain Judge being carried out, the first, the 
honest sacrifice of one serving others and the many that were 
to follow. Those are the images that bring us to this hearing 
today. We can have differences. But they became heroes, angels 
in heaven, if you would, without asking. They began that day 
with hope, with love on a morning very similar as today. Out of 
the fires of terror revealed the steel of our country. It is 
still revealed in our people today.
    With that, it is our time to act. It is our time to finish 
this. It is our time to remember the work, the life, the 
pictures, and the families that we will never forget. In fact, 
we will look back on and find our strength in those who went 
before and who are suffering now.
    With that, I yield back.
    Chairman Nadler. Thank you, Mr. Collins.
    Before I introduce the witnesses, I want to note the 
presence here of our colleague Lee Zeldin. I want to take this 
opportunity to thank him for his great work in supporting the 
bill and in gathering a lot of the cosponsors.
    I will now introduce the witnesses on the first panel. The 
Honorable Carolyn Maloney represents the 12th Congressional 
District of New York. She has been a Member of Congress since 
1993. Among her many accomplishments, she is one of the lead 
sponsors of H.R. 1327, the Never Forget the Heroes: Permanent 
Authorization of September 11th Victim Compensation Fund Act. 
She has long been a leader in fighting to help victims of the 
9/11 attacks and has been a staunch advocate for the Victim 
Compensation Fund.
    The Honorable Peter King represents the Second 
Congressional District of New York. He has also been a Member 
of Congress since 1993 and, among other things, has been a 
tireless champion of 9/11 responders and survivors. He has long 
worked with Representative Maloney and with me to create the 
World Trade Center Health Program and to reopen and sustain the 
Victim Compensation Fund.
    Please note that your written statements will be entered 
into the record in their entirety. Accordingly, I ask that you 
summarize your testimony in 5 minutes. I am supposed to read 
this, which you know. To help you stay within that time, there 
is a timing light on the table. When the light switches from 
green to yellow, you have 1 minute to conclude your testimony. 
When the light turns red, it signals your 5 minutes have 
expired. I hope the Members of the second panel have heard 
that, so I don't have to repeat that later.
    Representative Maloney, you may begin.

            TESTIMONY OF THE HON. CAROLYN B. MALONEY

    Mrs. Maloney. Thank you. Thank you, Chairmen Nadler and 
Cohen, Ranking Members Collins and Johnson. I want to thank you 
for inviting me to testify today on the Never Forget the 
Heroes: Permanent Authorization of the September 11th Victim 
Compensation Fund, which I introduced with Chairman Nadler, 
King, and 90 of our colleagues.
    Today, we are proud to have a strongly bipartisan bill with 
306 cosponsors; 80 of them are Republican. I am grateful that 
the Committee recognizes the importance of supporting 9/11 
responders, survivors, and their families and the urgency of 
passing this bill as soon as possible.
    We recently remembered D-Day, a day when all Americans came 
together to defend democracy, liberty, and freedom. Though we 
are not Members of the greatest generation, our first 
responders have defended and many gave their lives for just 
those same values.
    On September 11, this country was horrifically attacked 
killing exactly 2,997 innocent people. They were murdered, and 
a thousand more were injured in New York, Shanksville, 
Pennsylvania, and at the Pentagon simply for being American or 
being on American soil.
    Yet, it still gets worse. The death toll from that terrible 
day continues to grow. In the years since 9/11, tens of 
thousands more men and women, including first responders, 
relief workers, local residents have lost their lives or gotten 
sick as a result of their exposure to toxic chemicals, 
pulverized glass, powdered cement at the crash sites even 
though the U.S. Government told them repeatedly over and over 
again that it was safe to work at the site.
    Soon deaths from 9/11 diseases may outnumber those lost on 
that fateful day. 9/11 was an attack on America. In response, 
our Nation committed to finding those responsible and holding 
them accountable. The first veterans of the war on terror were 
the first responders, the volunteers, and the survivors of 9/
11. Today, they live all over the country in 433 out of the 435 
congressional districts. They are firefighters, police 
officers, construction workers, electrical engineers, 
volunteers from every single State who answered the call and 
traveled to New York or D.C. or Pennsylvania to help with the 
recovery.
    We have a moral obligation to provide support and 
compensation to these heroes and their families. Not only did 
they come to our aid when we needed them, but many are sick 
because they trusted the Federal Government when it said that 
the air around Ground Zero was safe to breathe.
    In October 2011, a 9-year fight, the James Zadroga 9/11 
Health and Compensation Act of 2010 was signed into law, 
establishing the World Trade Center Health Program and 
reopening and revising the September 11 Victims Compensation 
Fund. These programs provide health monitoring and financial 
compensation to first responders, survivors, and their 
families.
    In 2015, I am proud to say that Congress permanently 
reauthorized the health program. The Victims Compensation Fund 
will expire next year if we don't Act because it was only given 
a 5-year extension. Making matters worse, the special master of 
the fund announced in February that the fund would not make it 
to 2020 because of a funding shortfall partly due to the 
increase in cancer claims. To extend its life, the VCF was 
forced to cut all pending awards by 50 to 70 percent. This was 
devastating to the survivors and their families. For the last 3 
1/2 months, they have not been getting the help they deserve, 
the help that our Nation owes them.
    Since February 2019, more than 830 compensation recipients 
have received reduced awards from the VCF because of this 
shortfall. This is unacceptable, and we need to correct it. 
They shouldn't have to worry about the program running out of 
funding, and they should not have to come back to Congress 
every 5 years to beg for program reauthorization. That kind of 
uncertainty is unfair and unsustainable. Our legislation would 
make these families whole by requiring the special master to 
revisit these reduced claims and pay out the differences.
    I must tell you that, as evidenced by the more than 300 
cosponsors of the Never Forget the Heroes Act, this is not a 
Democrat or Republican issue or a New York issue. These are 
Americans of all political persuasions in every corner of our 
country who are counting on us. Our whole country owes them a 
debt, a debt that we can never fully repay.
    Look at the people who are sitting here with us today. 
These are the heroes and the heroines, the reasons that we are 
fighting so hard for this program. I want to conclude by 
recognizing them and thanking them and their families for the 
hours that they have spent lobbying, working to get this 
program reauthorized. You will hear from a few of them today. 
They continue to be our inspiration every single day that we 
fight for their healthcare and their financial security.
    As much as I love being with them and talking to them, they 
should not have to come back to Congress for another 
reauthorization. We are counting on you to make this program 
permanent, to reauthorize it. That is the least that we can do 
as a grateful Nation.
    Thank you.
    [The statement of Mrs. Maloney follows:]

         PREPARED TESTIMONY OF HON. CAROLYN B. MALONEY

    Chairmen Nadler and Cohen, Ranking Members Collins and 
Johnson, I want to thank you for inviting me to testify today 
on H.R. 1327, the Never Forget the Heroes: Permanent 
Authorization of the September 11th Victim Compensation Fund 
Act, which I introduced with Chairman Nadler, Congressman King, 
and 90 of our colleagues. Today, we are proud to have a 
strongly bipartisan bill, with 306 cosponsors, 79 of them 
Republicans. I am grateful that the Committee recognizes the 
importance of supporting 9/11 first responders, survivors, and 
their families and the urgency of passing this bill as soon as 
possible.
    On September 11, 2001, our Nation was horrifically 
attacked. Nearly 3,000--exactly 2,997 innocent people were 
brutally murdered and thousands more were injured in New York 
City, Shanksville, Pennsylvania, and at the Pentagon simply for 
being American or being on American soil.
    Yet, it still gets worse.
    The death toll from that terrible day continues to grow. In 
the years since 9/11, tens of thousands more men and women, 
including first responders, relief workers, and local 
residents, have lost their lives or gotten sick as a result of 
their exposure to toxic chemicals, pulverized drywall, and 
powdered cement at the crash sites even though we, the U.S. 
Government, told them it was safe to be at the sites, to go 
back to work, to go to school.
    Soon, deaths from 9/11 diseases may outnumber those lost on 
that fateful day.
    9/11 was an attack on America and in response, our Nation 
committed to finding those responsible, and holding them 
accountable.
    The first veterans of the War on Terror were the first 
responders, the volunteers and the survivors of 9/11.
    Today they live all over the country--in 433 out of 435 
congressional districts. There are firefighters, police 
officers, construction workers, electrical workers, and 
volunteers from every State who answered the call and traveled 
to DC, Pennsylvania and NY to help with the recovery.
    There are those who lived, worked, and went to school near 
Ground Zero who are now trying to build lives all across the 
country.
    We have a moral obligation to provide support and 
compensation to these heroes and their families. Not only did 
they come to our aid when we needed them, but many are sick 
because they trusted the Federal Government when it said the 
air around Ground Zero was safe to breathe.
    In October 2011, after a 9-year fight, the James Zadroga 9/
11 Health and Compensation Act of 2010 was signed into law, 
establishing the World Trade Center Health Program and 
reopening and revising the September 11th Victim Compensation 
Fund. These programs provide health monitoring and financial 
compensation to first responders, survivors, and their 
families.
    In 2015, I am proud to say that Congress permanently 
reauthorized the health program, but the Victim Compensation 
Fund will expire next year if don't Act because it was only 
given a 5-year extension.
    Making matters worse, the Special Master of the Fund 
announced in February that the fund would not make it to 2020 
because of a funding shortfall, partly due to an increase in 
cancer claims. In order to extend its life, the VCF was forced 
to cut all pending awards by 50 to 70 percent.
    This is devastating for first responders, survivors, and 
their families who depend on this compensation.
    For the last three and a half months, they have not been 
getting the help they deserve, the help our Nation owes them.
    Since February 25, 2019, more than 830 compensation 
recipients have received reduced awards from the Victim 
Compensation Fund because of a funding shortfall.
    This is unacceptable, and we must Act now to correct this.
    They shouldn't have to worry about the program running out 
of funding or need tocome back to Congress every five years to 
beg for program reauthorization. That kind of uncertainty is 
unfair and unsustainable.
    Our legislation would make these families whole by 
requiring the Special Master to revisit these reduced claims 
and pay out the difference. And it would permanently 
reauthorize the fund. The respiratory problems, cancers and 
other illnesses they face are permanent, and this program 
should be as well.
    As evidence by the more than 300 cosponsors of the Never 
Forget the Heroes Act, this isn't a Democratic or Republican 
issue or a New York and New Jersey issue--here are Americans of 
all political persuasions in every corner of our country who 
are counting on us. Our whole country owes them a debt, a debt 
that we can never fully repay.
    Allowing this fund to expire, or run out of the funding it 
needs, sets a dangerous precedent. If, god forbid, our Nation 
ever suffers an attack like this again, first responders must 
know that the Nation will support them and their families.
    Look at who is sitting here with us today--these heroes are 
the reason we fight and I want to conclude by recognizing all 
the first responders, survivors, and family Members of victims 
who have spent countless hours advocating for this bill and the 
VCF.
    You'll hear from a few of them during this hearing. We 
would never have been able to garner the support of our 
colleagues without their tireless dedication and hard work.
    They continue to be my inspiration every single day since 
the fight for their healthcare and financial security began.
    As much as I love my time with them, we would all rather 
they never have to come to DC or Congress again.
    After 9/11, we vowed to never forget. With that promise, we 
committed to making sure these heroes never have to go without 
the support they need. I will tell this Committee what I've 
told many people before--I will not rest, the other people 
testifying before you today will not rest, until we have fully 
honored this commitment.
    This is the very least we can do, as a grateful nation.

    Chairman Nadler. Thank you.
    Let me also note the presence here of another long-time and 
key supporter of the 9/11--of the Zadroga Act and their 
subsequent bills, Congressman Eliot Engel of New York.
    Representative King, you may begin now.

                  TESTIMONY OF HON. PETER KING

    Mr. King. Thank you, Mr. Chairman. I issued my statement 
for the record.
    I would just like to make a few remarks here on this vital, 
vital bill. I want to thank you. I want to thank your Ranking 
Member, Congressman Collins, Ranking Member Mr. Johnson, and 
also Steve Cohen. This is such a vital bill. It has a human 
aspect to it. I want to also just mention all of the FDNY, 
NYPD, Port Authority cops, EMS workers, court officers, 
construction workers, residents--your residents, Jerry--
students, all of whom have suffered over the years.
    We went through 6 months of wakes and funerals after 9/11, 
and we thought that was it. Now the last few years, those wakes 
and funerals have started again. Just last week in East Meadow, 
about 10 minutes from my home, a Port Authority lieutenant died 
from 9/11 illness. So, this is something that goes on and on 
and on. And soon we will have more dying after 9/11 than 
actually died on 9/11. That shows how vital this is.
    This is not a New York issue. It is not a New Jersey issue. 
It is definitely a national issue. I want to also take the time 
to thank the special master. I want to reemphasize what you had 
said. This program has been run exceptionally well. The fact 
that it is running out of funds is no reflection at all on the 
Administration of the program. Rather, it is a reflection of 
how deadly these illnesses are and how long they were dormant 
and latent and how deadly they are and how vicious they are.
    All of us knows a friend, a neighbor, a constituent, 
friends of neighbors of constituents who are suffering or have 
died. People who are going back every 3 or 4 months for medical 
tests, taking 20, 30 medications a day, constantly going back 
in for biopsies. This is a real national tragedy, which did not 
end at all on September 11 or September 12.
    Just the other day I got a call from a local radio reporter 
who was just diagnosed several months ago and just finished his 
chemotherapy. He was down there for weeks and months afterwards 
reporting, again, as to what had happened there, what was going 
on.
    As brave as those men and women were who rushed in on 
September 11--and nobody can ever, ever question or even think 
of excelling the bravery they showed--but you said, Jerry, that 
too often we forget what went on those weeks and months 
afterwards when people were down there inhaling those toxic 
fumes involved in the recovery, involved in--doing what they 
could to find the remains of their loved ones. So, again, we 
owe it to all of them.
    Let me give a special thanks to Jon Stewart. There is 
probably not that many issues that Jon Stewart and I would be 
agreeing on, but I have never seen anyone put himself into a 
cause more than this. Not just going on television. That is 
easy for him. What is tough is doing the grunt work of going 
door to door talking to Members of Congress. He has more 
patience than I would have in talking to some Members of 
Congress. He just goes in there. He just will talk and explain, 
tell you why this is a human issue, why it is not a Republican 
or Democrat issues. Again, he just does an excellent job. I 
really want to thank him. I don't think we would have been 
where we were back in 2015 or we would have been where we are 
now if it were not for Jon's efforts.
    So, Jon, I want to thank you for that.
    Also, I want to thank Lee Zeldin, Eliot Engel. Eliot has 
been there from the start. Lee has been there since--ever since 
he came to Congress. And he realizes the true impact of this.
    Again, Ranking Member Johnson, I know you mentioned the 
issue of costs, and that has been to be addressed. On the other 
hand, we have to find a way to get it done. I am not saying it 
is simple, but in many ways, it is. We have an obligation to 
get this done. These are real people who are dying, and we have 
an obligation to them and to their families because they are 
there, not through any fault of theirs but because of their 
courage, because their bravery, because they--and Congressman 
Nadler, some of the residents just lived in the wrong place at 
the wrong time. They were told it was safe to continue living 
there. Students in Stuyvesant High School. These are innocent 
victims. They are the first innocent victims of the first great 
war of the 21st century and we owe it to them. Also, we owe it 
to future generations. If something like this should, God 
forbid, happen in the future, we want people those people who 
are rushing into the buildings, those people who are taking 
care of the recovery, that they know, that they are assured 
that they will receive the compensation from the government 
that they deserve.
    So, again, I am proud to be here today. I can't emphasize 
enough how vital this legislation is. Also to thank the men and 
women behind us who--you know, they are the ones who are 
suffering. Carolyn, you and I, we can talk about it. We can 
sort of argue on the floor of Congress about it. But that is 
nothing compared to what they are going through every day of 
their lives.
    So, with that, I thank you for holding this hearing. I 
thank the Members for their attention. I thank the witnesses 
who are coming after us. I just say that September 11 showed 
the true bravery of the American people. The weeks and months 
after that showed the resilience and bravery of the American 
people. Also, I think if we can get this job done, it will show 
that Congress understands and respects and will always honor 
those who put their lives on the line for their country.
    With that, I yield back.
    Thank you, Mr. Chairman.
    [The statement of Mr. King follows:]

            PREPARED TESTIMONY OF REP. PETER T. KING

    Thank you Chairman Nadler and Ranking Member Collins for 
holding today's hearing on the need to reauthorize the 
September 11th Victim Compensation Fund. It is a pleasure to 
appear today with Congresswoman Maloney and before Chairman 
Nadler, both of whom I have worked closely on this critical 
issue. I would also like to thank Ranking Member Collins for 
his support of this bill, as well as the more than 300 Members 
of the House--from both parties--who are cosponsors of this 
legislation.
    The September 11th Victim Compensation Fund (VCF) was 
created in the aftermath of the horrific attacks on the World 
Trade Center, the Pentagon, and Shanksville, PA. Congress has 
since reopened and reauthorized it to provide for sick and 
injured first responders, survivors, and the families of those 
who have died from illnesses due to exposure to toxins during 
the rescue, recovery and cleanup operations at the crash sites.
    This program has been a lifeline for my constituents, and 
for first responders and survivors in nearly every 
Congressional district. To date, the VCF has received over 
48,000 eligibility claims from all fifty states and has made 
over 28,000 determinations since being reopened. The program 
has strong bipartisan backing and has been run effectively by 
the Bush, Obama and Trump Administrations. The application 
process is extremely rigorous and carefully monitored to 
prevent fraud.
    H.R. 847, the Never Forget the Heroes Act, would achieve 
two critical objectives in support of the September 11th VCF: 
Extend it to 2090, which would effectively make it permanent, 
and backfill awards that have been reduced due to insufficient 
funding.
    Each day, more and more first responders and survivors are 
getting sick and dying from their 9/11-related diseases, like 
cancer, respiratory illnesses and other chronic conditions. We 
already know from the 9/11 health programs that these illnesses 
have long latency periods and can decades to manifest. If the 
VCF is not extended past 2020, these men and women will lose 
the ability to seek compensation for these deadly conditions.
    While Congress has previously extended this program for 
five years at a time, we must now make the VCF permanent and 
fully fund it. Cops, firefighters, recovery workers and 
survivors need to know that this program will provide for them 
and their families if and when they get sick. Again, cancers 
and chronic conditions linked to 9/11 toxins can take years to 
show up. They need certainty.
    As it stands, the VCF has been forced to implement drastic 
cuts to awards due to insufficient funding. When the Fund was 
last reauthorized, it was based on the best available data. 
However, due to a surge in cancer claims and deaths, current 
funding is inadequate. Claimants are having their awards 
slashed by 50-70% before offsets are even deducted. Since the 
cuts were announced in February, 835 awards have already been 
reduced. This is a devastating blow to the 9/11 community. 
Congress should immediately pass H.R. 847 to reverse these cuts 
and make claimants whole.
    Very soon, more people will have died from 9/11-related 
illnesses than were murdered on that day. The number of local, 
State and federal law enforcement officers who have died of 9/
11 illnesses is already more than double that of those who died 
on September 11th. We must fulfill our promise to them to 
``never forget.''
    Once again, I thank Chairman Nadler and Ranking Member 
Collins for holding today's hearing. I look forward to working 
with you both to pass H.R. 847.

    Chairman Nadler. Thank you, Representative King.
    I obviously share those sentiments. I want to also note the 
presence of several the advocates who have fought so long for 
this legislation. John Field has been one of the leaders of 
them.
    We will now hear from our second panel of witnesses. While 
they are getting seated, I will do the introductions. Rupa 
Bhattacharyya is the special master for the September 11th 
Victim Compensation Fund. She was appointed to that position by 
the Attorney General in July 2016. During her tenure as special 
master, she has overseen the award of over $3.3 billion to more 
than 13,000 eligible claimants. She first joined the Department 
of Justice in 1996 through the Attorney General honors program 
as a trial attorney in the civil division and has spent most of 
her career there eventually rising to director of the torts 
branch prior to her appointment as special master. She received 
her J.D. from Harvard Law School, a master's degree in 
international relations from the Fletcher School of Law and 
Diplomacy at Tufts University, and her bachelor's degree from 
Tulane University.
    Dr. Jacqueline Moline is professor of occupational 
medicine, epidemiology, and prevention, and internal medicine 
at the Donald and Barbara Zucker School of Medicine at Hofstra/
Northwell. She is also the adjunct clinical associate professor 
of preventive medicine in Mount Sinai School of Medicine. In 
addition, she serves as a member of the World Trade Center 
Health Program steering committee. She received her M.D. from 
the University of Chicago Pritzker School of Medicine, her 
Master of Science degree in community medicine from Mount Sinai 
School of Medicine, and the B.A. from the University of 
Chicago.
    Lila Nordstrom is a 9/11 survivor and was a Stuyvesant High 
School student on September 11, 2001. She currently serves as 
executive director of StuyHealth, a position she has held since 
May 2006. In that role, she creates and coordinates efforts to 
educate young adults about health services available to 9/11 
survivors. Today, however, she is testifying in her personal 
capacity. She has also worked as a freelance writer and 
columnist. She received her B.A. with honors from Vassar 
College.
    Anesta St. Rose Henry is the widow of a construction worker 
and 9/11 World Trade Center responder Candidus Henry, who was a 
member of the Laborers International Union of North America 
Local 79. Mr. Henry was working for a contractor at Ground Zero 
from February 2002 to June 2002. He died last month from a 9/11 
related cancer.
    Thomas Mohnal retired as a supervisory special agent after 
a 30-year career with the Federal Bureau of Investigations. On 
September 11, 2001, Mr. Mohnal witnessed American Airlines 
Flight 77 crash and explode into the Pentagon. He immediately 
responded to the crash site and continued working at the 
Pentagon for the next 2 months. As a result of this work, he 
incurred a serious illness. He received his bachelor's degree 
in criminal justice from Lycoming College.
    Michael O'Connell retired as a lieutenant with the fire 
department of city of New York in 2009. From September 11 
through September 18, 2001, he performed rescue and recovery 
work at the World Trade Center site. He was awarded the 9/11 
survivor medal by the FDNY. He joined the FDNY in 1998 and 
later joined the FDNY--I am sorry. He joined the NYPD, the 
police department, in 1998, and later joined the fire 
department in 2001. As with several of our other witnesses, Mr. 
O'Connell incurred a serious illness as a result of his rescue 
and recovery work. He studied nursing at Molloy College and 
Nassau Community College.
    Luis Alvarez is a retired bomb squad detective with the New 
York Police Department. He was a responder at the World Trade 
Center on September 11, 2001. Today, he suffers from 9/11-
related liver cancer that has metastasized throughout most of 
his body, and he is about to have a 69th round of chemotherapy. 
Prior to joining the NYPD, he served in the United States 
Marine Corps. After retiring from the NYPD, Luis became an 
explosive ordnance disposal technician with the Transportation 
Security Administration at John F. Kennedy International 
Airport.
    Jon Stewart is the former host of ``The Daily Show'' on 
Comedy Central. Of most relevance to today's hearing, he has 
been an outspoken advocate for 9/11 responders and survivors 
and for both the September 11th Victim Compensation Fund and 
the World Trade Center Health Program. He has been a tireless 
advocate in raising awareness about the treatment of 9/11 
responders and survivors. To this end, he invited several of 
them onto the Daily Show, made numerous trips to Capitol Hill 
to advocate on their behalf. He is a graduate of the College of 
William and Mary.
    We welcome our distinguished witnesses, and we thank you 
all for participating in today's hearing.
    Now, if you would please rise and raise your right hand, I 
will begin by swearing you in.
    Do you swear or affirm, under penalty of perjury, that the 
testimony you are about to give is true and correct to the best 
of your knowledge, information, and belief, so help you God?
    The witnesses may be seated.
    Let the record show the witnesses answered in the 
affirmative.
    Please note that your written statements will be entered 
into the record in their entirety. Accordingly, I ask that you 
summarize your testimony in 5 minutes. To help you stay within 
that time, there is a timing light on your table. When the 
light switches from green to yellow, you have 1 minute to 
conclude your testimony. When the light turns red, it signals 
your 5 minutes have expired.
    Ms. Bhattacharyya, you may begin.

                TESTIMONY OF RUPA BHATTACHARYYA

    Ms. Bhattacharyya. Chairman Nadler, Ranking Member Collins, 
Chairman Cohen, Ranking Member Johnson, and distinguished 
Members of the subcommittee, thank you for inviting me to 
testify about the September 11th Victim Compensation Fund, or 
the VCF.
    Hearings like this remind us that September 11, 2001, 
marked only the beginning of an ongoing and evolving tragedy. 
To those of you who share the table with me who were there, who 
responded to the attacks, or would not allow terrorism to 
prevent you from returning to your schools, homes, or 
workplaces, thank you for your heroism and your sacrifice.
    I have spent my career in public service, including more 
than 20 years at the Justice Department. Since the Attorney 
General appointed me as special master in 2016, I have been 
humbled by the responsibility of serving the strong and 
resilient 9/11 community.
    I was privileged recently to attend the dedication of the 
Memorial Glade at the 9/11 museum in New York. I was reminded 
of the startling fact that the nearly 3,000 lives lost on 
September 11 may soon be overtaken by the number of lives lost 
in the years afterwards to illnesses that stem from exposure to 
toxins at all three attack sites.
    While no amount of money can fully compensate for such 
losses, I am proud that the VCF has been able to provide some 
needed relief to those who have suffered for so long.
    The VCF is an extraordinarily successful program. As of May 
31, we have awarded almost $5.2 billion to nearly 22,500 
individuals who suffer physical health conditions, including to 
the families of more than 850 who have died as a result of 
their exposure in New York City, at the Pentagon, and in 
Shanksville. Those compensated include first responders, 
workers or volunteers in construction, cleanup and debris 
removal, and people who lived, worked, or went to school in the 
affected areas. The VCF has received claims from individuals in 
every State of the Nation, including those who came in from 
around the country as part of the response efforts and those 
who have relocated in the years since the attacks.
    In my 3 years at the VCF, we have significantly improved 
efficiency and claim determination rates. The VCF now issues 
nearly as many awards each year as it did in total in its first 
5 years. And the VCF under my leadership has not documented a 
single instance of fraud in a paid claim. We work diligently 
with the Department's Office of the Inspector General to ensure 
that any indicia of fraud are investigated and reconciled.
    Despite its successes, however, the VCF faces a difficult 
situation. We received a record number of new claims in 2018, 
and we are on pace to exceed that number in 2019. The issue is 
basic math. Almost $5.2 billion awarded to nearly 22,500 
individuals, just over $2 billion left with over 21,000 claims 
and amendments still needing a decision and thousands more 
expected to be filed before the VCF's December 18, 2020, 
deadline.
    Several trends help us understand how we got here. Since 
reauthorization of the Zadroga Act in December of 2015, we have 
seen a dramatic increase in claims filed on behalf of those who 
have died as a result of their 9/11-related exposure, a 
significant increase in cancer claims, and a marked increase in 
claims from survivors, meaning those who lived, worked, or went 
to school in the affected areas.
    Taking account of these trends and the increasing rates of 
both claim submissions and award determinations, in February, I 
determined that the VCF had insufficient funding to compensate 
all pending claims and those projected to be filed under then 
existing policies. With that determination, I was required by 
law to modify VCF policies and procedures so that the VCF does 
not exceed its appropriated limit. This meant making 
significant reductions in awards.
    In deciding how to do this, I felt strongly that I could 
not leave some claimants uncompensated or fail to make 
allowance for those who suffered the most. I concluded that the 
fairest solution was to apply a percentage reduction to all 
claims. Thus, depending on when the claim was submitted, 
calculated loss values are being reduced by either 50 or 70 
percent with required offsets taken in full.
    I wish to thank the Judiciary Committee and the Members of 
this Subcommittee for giving me the opportunity to speak to you 
about this successful and important program. Along with my 
dedicated staff and with the full support of the Justice 
Department, I remain strongly committed to serving the 9/11 
community. We remain hopeful that our work continues to provide 
needed relief, and we stand ready, along with the Justice 
Department, to work with you to ensure that Congress has the 
information it needs to address appropriate legislative 
options.
    Thank you.
    [The statement of Ms. Bhattacharyya follows:]

            PREPARED TESTIMONY OF RUPA BHATTACHARYYA

    Chairman Nadler, Ranking Member Collins, Chairman Cohen and 
Ranking Member Johnson and distinguished Members of the 
Subcommittee, thank you for inviting me to testify before you 
today on behalf of the September 11th Victim Compensation Fund 
(the VCF or the Fund). I am very appreciative of the 
Committee's interest in the important work of the VCF and 
grateful for its attention to the needs of the 9/11 community, 
which includes the responders and survivors of that terrible 
day and of the weeks and months of rescue, recovery, and 
remediation efforts that followed. We all know that the world 
changed forever on September 11, 2001, but the work that I am 
privileged to do every day--and hearings like this one--remind 
us all that the events of September 11 marked only the 
beginning of an ongoing and evolving tragedy. I know that some 
of those who were there, who responded to the sites of the 
attacks, or were just living their lives only to be caught up 
in events beyond their control, are in the room, and I join the 
Members of the Committee in commending them for their heroism 
and their sacrifice. I have spent my career in public service, 
including more than 20 years at the Justice Department, but 
since the Attorney General appointed me to serve as Special 
Master for the VCF in 2016, I have been humbled by the 
responsibility of serving this strong and resilient community. 
I was privileged recently to attend the dedication of the 
Memorial Glade at the 9/11 Memorial and Museum in New York City 
and I was reminded again of the startling fact that the nearly 
3,000 lives lost on September 11 may soon be overtaken by the 
number of lives lost in the years afterwards to the illnesses 
that stemmed from exposure to toxins at the three sites. While 
no amount of money can fully compensate for the losses that 
were suffered as a result of that day, I am proud that the VCF 
has been able to provide at least some measure of needed relief 
to those who have sacrificed so much and suffered for so long.

                           Background

    By way of brief background, the VCF was originally created 
in 2001, immediately following the attacks, by Public Law No. 
107-42 (Sept. 22, 2001), as amended by Public Law No. 107-71 
(Nov. 19, 2001), as an alternative to tort litigation, and was 
designed to provide compensation for any individual (or a 
personal representative of a deceased individual) who suffered 
physical harm or was killed as a result of the terrorist-
related aircraft crashes of September 11, 2001, or the clean-up 
and debris removal efforts that took place in the immediate 
aftermath of those crashes. The original VCF (known as ``VCF 
I'') operated from 2001-2004 under the direction of Special 
Master Kenneth Feinberg, and distributed over $7 billion. VCF I 
concluded operations in June 2004, after compensating the 
families of over 2,880 people who died on 9/11 and 2,680 
individuals who were injured.
    In 2011, Congress passed and the President signed the James 
Zadroga 9/11 Health and Compensation Act of 2010 (``Zadroga 
Act''), Public Law No. 111-347 (Jan. 2, 2011), which 
reactivated the September 11th Victim Compensation Fund (known 
as ``VCF II''), expanded its pool of eligible claimants, and 
appropriated $2.775 billion to pay claims. VCF II opened in 
October 2011 and was originally authorized to accept claims for 
a period of five years, ending in October 2016. Prior to 
reaching the October 2016 claim filing deadline, however, in 
December 2015, Congress passed and the President signed the 
James Zadroga 9/11 Victim Compensation Fund Reauthorization 
Act, Public Law No. 114-113 (Dec. 18, 2015). The new Act 
extended the VCF for an additional five years, allowing 
individuals to submit claims until December 18, 2020, and 
appropriated an additional $4.6 billion to pay claims, bringing 
the total appropriated amount for VCF II to $7.375 billion.

                  VCF Progress and Operations

    The VCF, as reconstituted under the Zadroga Act, as 
amended, is an extraordinarily successful program. As of May 
31, 2019, the VCF has awarded over $5.174 billion in 
compensation to nearly 22,500 individuals who have suffered 
physical health conditions (including the families of over 850 
people who have died), as a result of their exposure to the 
terrorist attacks in New York City, at the Pentagon, and in 
Shanksville. Those compensated include first responders; people 
who worked or volunteered in rescue, recovery, clean-up, 
construction, or debris removal at the three sites; as well as 
people who lived, worked, or went to school in the affected 
areas of New York City and were exposed to toxins resulting 
from the attacks, the airline crashes, and the building 
collapses. The VCF has received claims from individuals in 
every State of the nation.
    This includes those who traveled to New York City, the 
Pentagon, and Shanksville from all over the country as part of 
the response efforts, both in official capacities and as 
volunteers, and those who have relocated elsewhere in the 
intervening years since the attacks. In the three years since 
my appointment, moreover, the VCF has made significant strides 
in improving its efficiency and its claim determination rates: 
whereas the VCF issued just over 9,000 awards in the first five 
years of the program, the VCF now issues nearly 8,000 
determinations on new claims and amendments annually.
    The VCF operates with a dedicated team of 173 Justice 
Department employees and contractors, headed by Deputy Special 
Master Jordy Feldman, who serves as the Director of our New 
York Office, and Deputy Special Master Stefanie Langsam, who 
oversees all operations in the D.C. office. The staff includes 
attorneys and support personnel who process, evaluate, and/or 
adjudicate claims; contractors who are responsible for VCF 
operations, including our toll-free Helpline, correspondence, 
and payment processing; and information technology specialists 
who are responsible for designing, developing, testing, and 
maintaining the VCF's claims management system, which allows 
for the filing of online claims. The VCF also has the strong 
support of the Department of Justice, and specifically, of the 
Department's Civil Division, which provides operational and 
administrative support to the VCF, and I wish to thank the 
Attorney General, Civil Division Assistant Attorney General 
Jody Hunt, Civil Division Deputy Assistant Attorney General Tom 
Ward, and the Civil Division's Executive Officer Catherine 
Emerson for their strong and unwavering support of the VCF.
    The scale of the VCF's operations is impressive. Each 
month, the VCF's dedicated Helpline receives more than 3,000 
incoming calls, we mail approximately 10,000 letters to 
claimants and their attorneys, we process an average of 3,000 
pieces of incoming mail, and, on average, we receive nearly 700 
new claims or amendments. It is important to note, when 
discussing VCF operations, that all of the VCF's administrative 
funding comes from the VCF's total appropriation, Public Law 
No. 112-10 (Apr. 15, 2011), and, as such, is part of the same 
pool of funds available for awards to claimants. For that 
reason, as Special Master, I am committed to keeping 
administrative costs down while also minimizing the burden 
placed on claimants and their representatives, and maximizing 
claims processing speed and efficiency. As of December 31, 
2018, the VCF's administrative costs are less than 3% of total 
awards issued.

                       VCF Claims Process

    The VCF reviews claims in two phases: Eligibility and 
compensation.

    <bullet> LFor eligibility, the VCF reviews the claim to 
determine whether the claimant is eligible to receive 
compensation under the Zadroga Act, including assessing 
whether: The claim was timely registered; the claimant has 
sufficiently proven that he or she was present at one of the 
attack sites or in the New York City Exposure Zone (Manhattan, 
south of Canal Street); the claimant suffers from an eligible 
physical injury or condition as certified or verified by the 
World Trade Center Health Program; and the claimant has 
properly complied with the Act's requirements that any 9/11-
related lawsuit be properly settled or dismissed in order to 
qualify for compensation from the VCF.
    <bullet> LFor compensation, all awards are individually 
calculated based on the specific circumstances of the claim. 
The VCF reviews eligible claims to determine the appropriate 
amount of non-economic loss (commonly referred to as ``pain and 
suffering'') based on the nature or severity of the 
individual's physical injury or condition. Non-economic loss 
awards are capped by statute at $90,000 for non-cancer 
conditions and $250,000 for a cancer condition. If a government 
entity or private insurer has formally determined that the 
claimant suffers a full or partial occupational disability as a 
result of an eligible 9/11-related physical injury or 
condition, the VCF generally also will calculate economic loss. 
This portion of the award can encompass a variety of 
components, including loss of income as well as loss of pension 
and other employment benefits; the VCF is required by law to 
cap annual gross income at $200,000 when calculating economic 
loss. The VCF also awards, in limited and appropriate cases, 
reimbursement of out-of-pocket medical expenses, replacement 
services losses, and reimbursement for burial costs in deceased 
claims.

    The VCF is required by law to subtract from the calculated 
award certain ``collateral offsets,'' which are benefits paid 
to the claimant by other entities because of the eligible 9/11-
related condition. These offsets may include disability 
benefits, settlements from 9/11-related lawsuits, and in the 
case of deceased claims, life insurance paid to the victim's 
beneficiaries.
    The VCF reviews claims in first-in, first-out priority 
order, which is established by the date on which the claim or 
amendment for compensation was submitted. Claim determinations 
are highly individualized and, on average, it takes about 16-18 
months for a claim to go from filing to determination, although 
some claims can be done sooner and some take longer, depending 
on the complexity of the claim and the extent of documentation 
required. The VCF is currently reviewing compensation claims 
and amendments submitted in mid-to-late 2017, and claims 
submitted in the early part of 2018 are expected to come under 
review soon. In addition, the VCF has an established process 
for expediting claims in cases involving terminal illness or 
significant financial hardship and is steadfast in ensuring 
that the criteria used to determine eligibility for this 
process are rigorously applied so that only those claimants 
with the most severe needs are allowed to jump the line. So far 
in 2019, the VCF has expedited 183 claims, which can move from 
filing to payment in as little as three weeks, and I wish to 
express our gratitude to the Department's Justice Management 
Division and the United States Department of the Treasury, 
which work closely with us to make sure that expedited payments 
are made as soon as possible. The circumstances that warrant 
expedition are truly saddening, and yet we are gratified to be 
able to issue these payments quickly and provide some sense of 
solace and financial security to claimants facing their darkest 
days.
    In making eligibility and compensation determinations, the 
VCF works closely with our sister program under the Zadroga 
Act, the World Trade Center Health Program, operated by the 
Department of Health and Human Services' National Institute for 
Occupational Safety and Health, under the stellar leadership of 
Dr. John Howard, which provides medical monitoring and 
treatment for those affected by 9/11. The VCF also has 
established beneficial relationships and direct data exchanges 
with multiple federal and State entities, each of which 
provides information used by the VCF in assessing claims. These 
include the Social Security Administration, the Department of 
Veterans Affairs, the Department of Labor, the Office of 
Personnel Management, and the Department's own Office of 
Justice Programs' Public Safety Officers' Benefit Program, as 
well as the New York State Workers' Compensation Board, the 
Fire Department of New York, the New York Police Department, 
the New York City Employees' Retirement System, and various 
other New York city and State pension boards and unions.
    By statute, claimants are limited to filing only one claim 
with the VCF, but VCF policy allows claims to be amended at any 
time before the program closes in 2020 if the claimant suffers 
a new injury or incurs a new and previously uncompensated loss. 
Claimants are also allowed to appeal in the case of an 
eligibility denial, or if the individual believes the award 
calculation did not properly account for the individual 
circumstances in the claim. Hearings are non-adversarial and 
provide an opportunity for claimants to tell us their story, 
and we have a dedicated staff of pro bono hearing officers (who 
operate under a special appointment from the Attorney General) 
who generously lend their expertise and gravitas to the VCF's 
administrative appeals process; in 2018, the VCF held 380 
appeal hearings; so far in 2019, we have held 299. The law 
provides that the ultimate decisions of the Special Master on 
eligibility and compensation are final and unreviewable by any 
judicial authority, which is an extraordinary grant of 
discretion that I take extremely seriously.
    The VCF also takes very seriously its role in ensuring that 
public funding is allocated only to those individuals who are 
suffering as a result of 9/11, and has a robust system of 
standards and procedures in place to prevent fraud. All claim 
form responses and information submitted to support a claim are 
subject to 18 U.S.C. 1001, the statute that criminalizes false 
statements made to the Federal Government. Moreover, key 
information used to establish eligibility and to calculate loss 
is independently verified with various third parties. Multiple 
internal checks take place throughout the claim review process 
to ensure that factual inconsistencies, data discrepancies, and 
other potential indicators of fraud are identified and 
resolved. In addition, the
    Federal Bureau of Investigation (FBI or Bureau) provides a 
background check for every individual who is receiving a VCF 
payment, and the VCF receives dedicated assistance when needed 
through a strong partnership with the Department's Office of 
the Inspector General. The VCF also undergoes regular 
independent government audits and an annual financial audit. We 
are very proud of the fact that the VCF under the Zadroga Act 
has not documented any instance of fraud in a paid claim.

                   Current Status of the VCF

    Under the Zadroga Act, as amended, the VCF is required to 
close to new claims and amendments on December 18, 2020. At the 
beginning of 2019, VCF projections showed that the $7.375 
billion in total funding was expected to be insufficient to pay 
all claims already pending and claims expected to be filed. The 
law passed by Congress when it reauthorized the VCF in 2015 
recognized the possibility that funding might be insufficient 
and required the Special Master to annually reassess the VCF's 
policies and procedures to ensure that (1) funding is 
prioritized for those individuals who suffer from the most 
debilitating physical conditions; and (2) funds are not 
obligated in excess of the $7.375 billion appropriation. Under 
the law, if, as a result of this annual reassessment, I 
determine that those requirements cannot be met, I am required 
to take actions or make modifications to VCF policies and 
procedures as necessary to achieve these statutory 
requirements. Thus, once I made the determination that funding 
was insufficient in February 2019, I did as the law required 
and modified VCF policies and procedures to reduce VCF award 
values for all pending and potential claimants to ensure that 
the VCF would stay within the appropriated limits while still 
continuing to prioritize the claims from the claimants with the 
most debilitating conditions. I would like to use the remainder 
of my time to explain how we got here and why I made the 
decision that I did.
    The VCF was authorized with a limited amount of funding 
but, while the population of potential claimants is a finite 
set, its exact numbers are unknown. There is no accurate count 
of how many people might have been exposed to toxins stemming 
from the attacks, and there is considerable uncertainty about 
the number of individuals who ultimately will fall ill due to 
the long latency periods that can elapse before manifestation 
of the cancers determined to be related to 9/11 exposure. The 
VCF also has suffered from an information gap; in the early 
years of the program, many eligible individuals were not aware 
that the VCF was an available resource, assuming it was meant 
only for New York City first responders. In fact, even the FBI, 
which has lost at least 16 employees to 9/11-related illnesses, 
did not recognize until fairly recently that its employees 
might be eligible for VCF compensation. The efforts of Director 
Christopher Wray and his staff have been instrumental in 
ensuring that the Bureau and other federal law enforcement 
agencies are made aware of the programs that are available to 
help them.
    As a result of increasing outreach, not only within the 
Federal Government but by victims' advocacy groups, many of 
which are represented here today, by the World Trade Center 
Health Program, and by the lawyers who represent over 80 
percent of VCF claimants, but also as a harbinger of the 
increasing seriousness of 9/11-related illnesses, the VCF 
received a record number of new claims in 2018 and is on pace 
to exceed that number in 2019. For perspective, in the first 
five years of the Fund, through December 31, 2016, roughly 
19,000 compensation forms were filed. In the two years after 
that, through December 2018, almost 20,000 additional 
compensation forms were filed, with an additional 7,700 
compensation forms filed so far in 2019 (see Chart A). We have 
awarded $5.174 billion to nearly 22,500 individuals, some more 
than once due to an amendment or an appeal. Keeping in mind 
that we must maintain a funding reserve for administrative 
costs, we have just over $2 billion left, with over 21,000 
claims and amendments still needing a decision. While some 
number of those pending claims will be denied, and some number 
of amendments will not warrant any change to the original 
award, it is still clear that the VCF projects a shortfall.
    Consistent with the reassessment mandate in the statute, 
each of the VCF's Annual Reports published since 
reauthorization in December 2015 has addressed the possibility 
of a funding shortfall. In the first reassessment conducted 
following Reauthorization, published March 13, 2017, as part of 
the VCF's Fifth Annual Report, the VCF projected that funding 
would be sufficient based on the data available at the time. We 
recognized, however, that there was considerable uncertainty in 
those projections and that the reauthorization of the VCF, with 
its new claim filing deadline and additional funding, provided 
opportunities for more people to benefit from the funding 
allocated to this important program. In the second 
reassessment, published with our Sixth Annual Report in 
February 2018, we projected that the VCF would remain just 
barely within its funding limit, projecting a total expenditure 
of $7.295 billion out of the appropriated $7.375 billion. 
Noting the relatively thin margin that existed, we indicated at 
that time that we would continue to monitor our projections 
over the course of the year to determine if changes would be 
needed prior to the following year's annual reassessment. In 
October 2018, following the anniversary of the September 11th 
attacks, and after internal projections done with August 2018 
data suggested that the VCF, at the existing compensation 
levels, would exceed the available appropriated amount, the VCF 
published a Notice of Inquiry in the Federal Register, alerting 
the public of the possibility of a funding shortfall and 
seeking public comment on how to distribute the remaining funds 
in the most fair and equitable manner.
    As we evaluated the comments received in response to the 
Notice and prepared the reassessment at the end of 2018, we 
were able to pinpoint several new trends, which reflect 
significant changes to the composition of the VCF's claimant 
population since Congress last examined this law in 2015, in 
terms of the types of claims filed, the types of conditions 
claimed, and the types of claimants filing claims. Since the 
Reauthorization of the VCF in December 2015, we have seen:

    <bullet> LA dramatic increase in deceased claim filings, 
meaning claims filed on behalf of those who have died as a 
result of their 9/11-related physical health condition. At the 
end of 2015, the VCF had received 610 deceased claims. As of 
May 31, 2019, we have received 2,252 (see Chart B), with more 
than a quarter of that total (676) filed year-to-date in 2019.
    <bullet> LA marked increase in cancer claims. In 2015, the 
Congressional Budget Office estimated that, should the VCF 
remain in operation through 2025, we would issue awards on a 
total of between 2,500 and 10,000 cancer claims. We have 
already found over 8,800 cancer claimants eligible, and already 
awarded compensation to 7,750 of these individuals (see Chart 
C). And we are a full six years away from 2025.
    <bullet> LA marked increase in claims from the survivor 
population, meaning those who lived, worked, or went to school 
in the area. At the time of Reauthorization in December 2015, 
not quite 14% of all VCF awards were paid to survivors. Today, 
just about 38% of claims filed are from this population (see 
Chart D).

    When you take these trends, factor in that deceased claims 
and cancer claims tend to be higher value awards, and also 
consider the fact that we have made significant improvements to 
our processes which have significantly increased the rate at 
which awards are issued, the plain fact is that we are 
expending the available funds more quickly than assumed, and 
there are many more claims than anticipated.
    Using data as of January 31, 2019, and in consideration of 
these trends, I determined in the third reassessment required 
by the law, published with our Seventh Annual Report in 
February 2019, that the VCF had insufficient funding to 
continue to compensate all pending claims and claims projected 
to be filed by December 18, 2020, under the VCF's then-existing 
policies and procedures. As described in that report, available 
at www.vcf.gov, the VCF projected, using a trend-based 
analysis, that, after considering all awards made through 
January 31, 2019, we would expect to make a total of 28,185 
additional original and revised awards, which would mean that, 
based on average award values, the VCF's total expenditures at 
program end (including necessary administrative costs) would 
require a total cumulative outlay of $11.991 billion, $4.616 
billion more than the $7.375 currently appropriated. Given my 
determination of insufficient funding, the law required me to 
modify VCF policies and procedures so as to ensure that the VCF 
does not obligate funds beyond its appropriation. This meant 
that the VCF needed to make significant reductions in awards.
    In choosing how to go about this task, I attempted not only 
to adhere to the VCF's two statutory directives--not exceeding 
the available appropriation, and prioritizing funding for 
claimants with the most debilitating conditions--but also to 
meet three central policy goals: (1) Ensuring that all eligible 
claimants filing before the statutory deadline, December 18, 
2020, would receive some compensation for their suffering 
(subject to applicable statutory offsets); (2) holding a 
reasonable amount of money in contingent reserve to ensure 
against further unanticipated increases in claim filings, and 
to be able to make increased awards in appropriate cases where 
claimants are suffering from extraordinarily severe conditions; 
and (3) minimizing operational and administrative 
implementation challenges to avoid a delay or outright halt in 
claim determinations.
    After thoroughly evaluating every potential available 
option, I agreed with the clear majority of the commenters who 
responded to the VCF's published Notice of Inquiry and 
concluded that the fairest way to implement the required 
reduction of awards was to do so across the board, applying a 
percentage reduction to all awards. Other approaches would have 
had the effect of disproportionately affecting the claimants 
with the most debilitating conditions, which I believed to be 
inconsistent with the VCF's statutory mandate. Reducing the 
highest value awards, for example, or making changes to the way 
in which economic losses are calculated, would most affect 
those claimants whose 9/11-related physical health conditions 
are so severe that they are no longer able to work. Continuing 
to make VCF awards without any changes until the funding ran 
out would have meant that claimants with the most severe 
conditions whose claims had not yet been filed would be left 
entirely uncompensated. I could not abide a plan that would 
leave some claimants uncompensated or that would fail to make 
any allowance for the claimants who suffer the most.
    Accordingly, all pending claims, regardless of when they 
were filed, are subject to the new policies put in place 
effective February 25, 2019, to address the insufficiency of 
funds, although we were able to make some accommodation for 
claimants whose claims were already pending as of February 1, 
2019, as follows:
    Effective for any award on which the VCF makes a 
determination on or after February 25, 2019:

    <bullet> LIf the claim or amendment was submitted for 
compensation review on or before February 1, 2019, the 
calculated award will be reduced by 50 percent.
    <bullet> LIf the claim or amendment was submitted for 
compensation review on or after February 2, 2019, the 
calculated award will be reduced by 70 percent.

    By law, we cannot reduce the offsets applied to the award 
and so the offsets are subtracted in full from the calculated 
reduced award.
    The reductions in awards have now been fully implemented. 
In the period between February 25, 2019, when the reductions 
became effective, and May 31, 2019, we have issued 835 awards 
that have been subject to reduction.

                           Conclusion

    Taking action to reduce VCF awards to comply with the law 
was a challenge that I worked to ensure was solved in an 
equitable and transparent way, as I spend each and every day 
immersed in the stories of the individuals who make up the 9/11 
community. Along with my talented and dedicated staff, I remain 
deeply committed to serving the needs of the 9/11 community, 
which we know to be strong and resilient. We are hopeful that 
the work that we do continues to provide some measure of needed 
relief. And, most importantly, we are grateful to this 
Committee and to Congress for re-examining the Zadroga Act and 
considering how best the Nation as a whole might be able to 
continue to help the Members of the 9/11 community.
    Mr. Chairman, Ranking Member, thank you for the opportunity 
to speak here today about this successful and extraordinarily 
important program. To the extent that the Committee requires 
further information regarding the evaluation of claims, the 
unanticipated nature of the illnesses compensated by the VCF, 
and the projected numbers of those who may be eligible for 
compensation in the future, I, my staff, and the Department are 
fully committed to working with you to ensure that Congress has 
the information that it needs to address appropriate 
legislative options. Thank you.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Nadler. Thank you.
    Dr. Moline.

              TESTIMONY OF JACQUELINE MOLINE, M.D.

    Dr. Moline. Good morning Nadler, Chairman Cohen, Ranking 
Member Johnson, and Members of the committee. I am honored to 
be here this morning.
    My name is Dr. Jacqueline Moline. I am the chairperson of 
the Department of Occupational Medicine, Epidemiology and 
Prevention at the Zucker School of Medicine at Hofstra 
University Northwell. And I am the director of the Northwell 
Queens World Trade Center Health Program. My specialty, 
occupational and environmental medicine, deals with the impact 
of hazardous substances on the health of individuals.
    On September 11, I, like every person in New York, watched 
in shock and horror as our Nation was attacked. My colleagues 
at Mount Sinai where I was then working knew of the potential 
for health effects related to asbestos and other toxicants. We 
knew there would be disease in the short term and the long 
term. Our immediate concern was for those acute health effects, 
the first wave.
    My colleagues and I have written extensive about this--
extensively about this, and copies of some publications are 
attached to my testimony.
    At Mount Sinai, we began seeing patients that month. 
Through the tremendous efforts of the New York congressional 
delegation and organized labor, in April 2002, we were given 1 
year of funding to begin medical surveillance programs for 
rescue and recovery workers, construction workers, and 
volunteers exposed at the pile.
    At the beginning, we could only evaluate patients and tell 
them their health conditions. We are not allowed to provide 
treatment. This program was extended 1 year, and we continued 
to partnership with SUNY Stony Brook, Queens College, New York 
University, and Rutgers to see patients in locations convenient 
for them. These surveillance programs continued, eventually 
including treatment and evolved into the World Trade Center 
Health Program authorized eventually by the James Zadroga Act 
of 2010.
    After reauthorization in 2016, we had 75 years of funding 
for medical surveillance and care of World Trade Center related 
disorders as well as dedicated research. As of March 31, 2019, 
95,320 first responders and survivors, the resident 
schoolchildren, and individuals who worked in Lower Manhattan 
who returned to their businesses had been evaluated.
    Yes, the towers were in New York City, and the Pentagon is 
here in DC, but it was an attack on our Nation. Individuals 
from all over the country participated in this rescue and 
recovery effort. Over the past 18 years, some people who lived 
in the Metro New York area have moved to retire to other parts 
of the country. Due to these reasons, there is a national 
component to the World Trade Center program. As of May 2019, 
16,684 individuals are enrolled in the national program in 
every State.
    Downtown Manhattan, home to thousands of residents, was 
blanketed in thick dust. School children, like Lila sitting 
here, had been evacuated from their places of learning on 
September 11. They returned to their schools, despite fires 
that continued to rage and amid dust that persisted through May 
2002. The survivors are also covered by the Zadroga Act, and 
the number of survivors has increased by 327 percent in 8 
years.
    Medical conditions have persisted. That is the second wave. 
For example, over 50 percent of firefighters who worked the 
World Trade Center site had developed a persistent respiratory 
condition. Rates of asthma remain elevated along with a variety 
of other diseases.
    Here we are nearly 20 years later. Unfortunately, we have 
moved into the third wave of diseases, those conditions that 
take years to develop. We don't a lot about the actual dust and 
fumes that enveloped Lower Manhattan. I would like to reiterate 
that, as medical professions, we never believed the air was 
safe to breathe. That is now amply clear.
    The World Trade Center now collects additional data on 
diseases that have been classified as World Trade Center 
related. This is crucial since early data collection on who was 
exposed was lacking. Further research is ongoing to determine 
what new diseases might be added to the approved list.
    Since 2012, when over 50 cancers were added to the list of 
World Trade Center conditions, there have been 11,824 World 
Trade Center certified cancers treated, including 2,614 
prostate, 552 lung, 741 breast, including over 35 male breast 
cancers, 667 thyroid, 571 cases of lymphoma and hundreds more. 
Glioblastoma have occurred like the one that killed Candidus 
Henry, a patient at the Northwell program. You will hear from 
his widow in this session.
    The survivor program has had 3,030 individuals with cancer. 
And in the national program, the number of cancer cases 
certified increased from 7 in 2013 to 708 in 2018. Nearly 
20,000 children attended school below Houston Street and were 
exposed to over 150 toxicants in that deadly brew.
    Overall, over 55,000 people have been certified for at 
least one World Trade Center related health condition in the 
responder and survivor programs and in the national programs. 
The effects from exposure of 9/11 have not only been measured 
in the number of deaths, cancers, lung transplants, and 
countless new cases of asthma, studies have shown the impact on 
employment disability and early retirement.
    I would like to briefly tell you about the impact by 
telling you about a real person. Elli Engler, who is here today 
and has allowed me to give a brief description of her health 
issues, was a certified industrial hygienist in charge of 
health and safety for the United Federation of Teachers. She 
went into every school in Lower Manhattan, assessed the 
immediate health risk for staff and children. In 2008, she 
developed a second breast cancer, a condition she had fought 
and beat in 1985. She developed asthma shortly after 9/11, but 
it was under control. Recently, she has had severe asthma 
attacks that have required hospital visits. Elli, like so many 
in the World Trade Center community, fought these illnesses 
with courage.
    After 2011, she also realized that all 500 staff at these 
schools in Lower Manhattan were eligible for the health program 
if they had World Trade Center conditions, and she began staff 
outreach. She also advocates on behalf of the school children 
in Lower Manhattan who have now all graduated and moved 
throughout this country. Her clinical future, like so many 
others, is uncertain, and she will require close monitoring and 
care for the rest of her life. She is truly a hero.
    On September 11, 2,973 people lost their lives, including 
firefighters, police officers, EMS workers, and people just 
going to work. Since then, an additional 204 police officers, 
180 FDNY firefighters, and, in total, an estimated 2,000 
responders and survivors have died as a result of 9/11 
illnesses. With every day, these numbers increase. Soon the day 
will come when there are more people who died of World Trade 
Center related illnesses after 9/11 than perished on that 
horrible day.
    Based on the trends we have seen in research; this third 
wave of 9/11 diseases will continue. Because of the monitoring 
program, we are able to identify new clusters of disease that 
will develop, such as neurological conditions, autoimmune 
disorders, and diseases we can't foresee.
    I consider myself fortunate to have been in New York City 
on 9/11 so I could contribute to caring for the thousands of 
men and women who suffered from occupational and environmental 
exposures from the World Trade Center dust and fumes. Being 
able to serve my patients and our Nation as a physician 
involved in the World Trade Center Health Programs is one of 
the greatest honors of my life.
    Thank you.
    [The statement of Dr. Moline follows:]

      

                 FOR THE RECORD JACQUELINE MOLINE, M.D.

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. Thank you, Dr. Moline.
    Ms. Nordstrom.

                  TESTIMONY OF LILA NORDSTROM

    Ms. Nordstrom. Thank you to Chairman Nadler, Chairman 
Cohen, and Ranking Member Johnson, and the Members of the 
Committee for holding a hearing on this incredibly important 
issue.
    My name is Lila Nordstrom. And on September 11, I was a 17-
year-old student at Stuyvesant High School, which is a public 
school that is three blocks from the World Trade Center. On the 
morning of 9/11, I was in class with windows facing south, and 
my classmates and I watched as planes hit the Twin Towers. We 
watched dozens of people jumping to their deaths. We watched 
thousands of evacuees stream out of the area. Then the first 
tower fell, and a dust cloud rushed our building. We couldn't 
see anything.
    I was one of the first people out of Stuyvesant when we 
finally got evacuation orders. The moment I stepped outside, 
the second tower collapsed, and everybody took off in a run.
    I walked 10 miles that day. I couldn't reach my parents. I 
didn't end up even going home. I ended up walking all the way 
to Queens.
    After the attacks, we were sent to a school in Brooklyn 
temporarily. The Stuyvesant building was used as a morgue and a 
command center for the cleanup effort at Ground Zero because of 
its proximity.
    Unfortunately, after EPA Administrator Christine Todd 
Whitman told the residents of downtown and New Yorkers that the 
air was safe to breathe, government officials made the decision 
to return us to our school building. We went back on October 9, 
which is less than a month after the attacks.
    Ground Zero was still on fire and would be for another 4 
months. The smell of smoke was suffocating every day. Despite 
assurances from officials, very little got done to clean the 
school for students. No hazmat team got called in. The filters 
in our ventilation system were not replaced until January. The 
air vents, which were filled with World Trade Center dust, were 
not cleaned until the following summer. The auditorium's 
contaminated upholstery was not actually replaced fully until 
2014, which you can see on the image above.
    The school was also continually recontaminated by trucks 
that were carting toxic debris from the World Trade Center site 
past our school and dumping it into barges that were parked 
next to the air intake system. Testing of the air outside of 
our school showed that on many days it was actually as bad as 
the air at Ground Zero itself. You can see where the barge was 
located. That picture is taken from the doors of our school.
    In total, more than 19,000 public school students returned 
to school downtown during the cleanup as did thousands of 
teachers and school staff. 10s of thousands of students and 
professors from Borough's Manhattan Community College and Pace 
University and NYU, downtown residents and office workers were 
actively encouraged to return, even those that had small 
children at home. And many of them got left to clean up 
dangerously contaminated spaces without much guidance.
    Federal dollars even got spent by the Lower Manhattan 
Development Corporation to encourage new residents to move into 
the area because, unsurprisingly, they began to face really 
high vacancy rates.
    Through all of this, the EPA knew that the air was not safe 
down there, but they did not tell us.
    NIOSH has now linked more than 68 cancers to the World 
Trade Center toxins. I haven't even had my 20th high school 
reunion yet, but I already have five former classmates with 
lymphomas that I just know personally. My friend Michele is in 
remission from thyroid cancer. Other classmates of mine have 
been diagnosed with rare bone cancers, testicular cancers, 
melanomas. There is even a male breast cancer survivor among 
us, as Dr. Moline was talking about earlier.
    Classmates are also starting to die now. Just a couple of 
months ago, Cathy Choy, who graduated just a year after me, 
passed away at aged 33 of a 9/11-linked gastric cancer. Her VCF 
award has not been paid yet. When it is paid to her husband, it 
will be cut by 50 or 70 percent.
    That is just my school. BMCC students are sick, as are 
students from Pace, and as are many younger children from the 
area.
    Beyond cancer, plenty of us are already suffering from 
chronic 9/11-related conditions, myself included. I am 
personally certified with asthma, with GERD, with chronic 
rhinosinusitis, and with PTSD.
    So, these serious illnesses that are emerging now are just 
the tip of the iceberg. If the VCF is allowed to close, a lot 
of my classmates will not find out they are sick in time to 
make a claim at all.
    Women have special reason to be concerned, because most of 
the research that has been done on 9/11 health impacts has been 
done on the responder population, which is largely male. That 
means that a lot of women's health issues will not actually be 
linked to the attacks in time to ever be compensable through 
the VCF.
    The youngest 9/11 survivors now, we live all over the 
Nation, and we have, you know, 70 or 80 years to live with 
these exposures, in the case of the youngest exposed. Cancer 
does not respect arbitrary funding deadlines. If the VCF is 
allowed to reduce payouts and expire, this resource that was 
meant to ease our suffering is going to become just another 
symbol of how we were sacrificed by a government that thought a 
quick return to normalcy after a tragic event was more 
important than the health and safety of the children who lived 
through it.
    In 2011 and 2015, the government did the right thing and 
enacted and then reauthorized the Zadroga Act, and Congress 
should do the right thing one more time and fully fund and 
extend the VCF. My friends who get sick in 2027 deserve the 
same help they would have received if they had gotten sick in 
2017, and so do I.
    Thank you.
    [The statement of Ms. Nordstrom follows:]

              PREPARED TESTIMONY OF LILA NORDSTROM

    Thank you to Chairman Nadler, Ranking Member Collins, and 
the rest of the Committee for holding a hearing on this 
incredibly important issue.
    My name is Lila Nordstrom. On September 11th, 2001 I was 17 
years-old and a student at Stuyvesant High School, a New York 
City public school with 3,000 students just three blocks from 
the World Trade Center.
    The morning of 9/11 I was in a class on the tenth floor 
with windows facing the Twin Towers. My classmates and I saw 
two planes hit the World Trade Center and watched in horror as 
dozens of people jumped to their deaths and thousands of people 
evacuated. We were still in class when the first building 
collapsed. As a dust cloud rushed towards our windows, we were 
ordered to go to our homerooms, then, eventually, to evacuate 
the building.
    I was one of the first people to evacuate Stuyvesant. The 
instant that I stepped outside, the second WTC tower collapsed 
and everybody began to run. I eventually ran out of breath and 
a gym teacher named Ms. Luczak, herself only two years out of 
college, found me and began to walk with me. People had parked 
along the Hudson River to play radio news for evacuees, so as 
we walked we heard reports that many unidentified planes were 
still in the air and that the entire island of Manhattan could 
be evacuated. We were far from any bridges and thought we might 
end up having to swim. I told her that I didn't know how, so 
she told me she could swim me across the Hudson River if we got 
trapped. We slowly found other students as we walked and 
eventually one of my friends joined the group. I was too afraid 
to go home, having heard on the radio that a plane was headed 
for the Empire State Building, only a few blocks from where I 
lived, so I walked across the 59th Street Bridge with her 
instead. We eventually made it on foot to Astoria, Queens, ten 
miles in total, and I spent the night at her house.
    When classes resumed, Stuyvesant students were told to 
report to a high school in Brooklyn. At the time our school 
building was being used as a command center and morgue for the 
WTC cleanup effort because of it's proximity to Ground Zero. 
Less than a week after the attacks, however, Christine Todd 
Whitman, the head of the Environmental Protection Agency, 
assured New Yorkers that the air downtown was ``safe to 
breath.'' Based on this reassurance, government officials made 
the decision to send Stuyvesant students back to lower 
Manhattan on October 9th, less than a month after the attacks.
    On the day that Stuyvesant students returned to lower 
Manhattan, Ground Zero was still burning and would continue to 
burn for another three months. It was the early days of the 
cleanup so the neighborhood wasn't yet open to the public, and 
every morning, students had to pass through multiple police 
checkpoints just to get into the school. Once there, we were 
given cryptic warnings not to drink out of the water fountains 
or leave during the day for any reason.
    The acrid smell of a smoke permeated the building every day 
by noon, and the school was constantly re-contaminated by a 
continuous line of trucks carrying hazardous debris from the 
WTC site to the barge docked next to the building. From the 
third floor students could watch as clouds of dust spiraled 
into the air while truck after truck dumped loads of toxic 
pulverized debris right next to our air intake system. The 
happened all day, every day. The trucks were uncovered and as 
they drove by they also left a trail of dust behind them that 
settled on every surface outside. Testing of the air around the 
school showed that on many days there were the same levels of 
toxic dust in the air around Stuyvesant as there were at Ground 
Zero itself. Government agencies were repeatedly asked to at 
least hose down the truckloads of debris, but by the time they 
started doing so winter had set in and they had to stop because 
the debris was freezing.
    It was only after our return that we learned how haphazard 
and incomplete the cleaning of our building had been as it 
transitioned from morgue back to school. No HazMat team was 
called in to clean Stuyvesant. The highly publicized one 
million dollars reportedly spent to clean the building was not 
used to replace the contaminated filters in our ventilation 
system, which remained until the end of January, after months 
of stalling by the Board of Education. The money was also not 
used to clean the building's air vents, which were still packed 
with WTC dust when I graduated that spring. The money was 
certainly not used to replace the contaminated carpeting and 
fabric in our auditorium, either. That room, where we held our 
first meeting upon returning and the school's most popular 
event that spring, was not fully reupholstered until 2014, more 
than ten years later.
    Suffice it to say my lungs suffered, and I certainly was 
not alone. As soon as Stuyvesant students returned there were 
widespread reports of nosebleeds, coughs that just wouldn't go 
away, chronic headaches, and students suffering from a slew of 
worsening respiratory issues.
    That was layered on top of the trauma of the attacks 
themselves, and the continuing trauma of living with the 
cleanup. One day we arrived to find the mangled remainder the 
sphere statue that sat between the Twin Towers parked in front 
of our school, a horrifying reminder for us to ponder as we 
started the day. We also had fire drills in our first days back 
that showed us our new emergency route, which was, for some 
reason, to run towards Ground Zero. The area was still closed 
off to the public and was populated by with National Guardsmen 
in heavy duty dust masks. It turned out that our usual 
evacuation route was being blocked by the debris barge. We were 
sandwiched between the fire and the dust.
    Unfortunately, Stuyvesant was not the only school in Lower 
Manhattan to send children downtown before it was safe. There 
were some 19,000 public school students in the contamination 
zone between the fall of 2001 and spring of 2002, including 
thousands of elementary-aged kids. There were, in fact, two 
public elementary schools just across the street from 
Stuyvesant, both within two blocks of the barge operation. 
There were also students attending private schools in the area, 
as well as thousands of children living downtown who either 
weren't old enough for school or went to school outside the 
zone.
    Thousands of teachers and school staff were also exposed 
when these schools reopened, as were tens of thousands of 
college students and professors at Borough of Manhattan 
Community College and PACE University, and hundreds of NYU 
students living in downtown housing.
    Beyond the schools, lower Manhattan is also one of the 
busiest and most densely populated neighborhoods in the U.S., 
and roughly 25,000 residents and 325,000 office workers also 
returned to the area before it was safe. Many were left to 
clean up contaminated homes and offices themselves, given only 
dangerously inadequate guidance, which they followed unaware of 
the great risk to their health. Many of these spaces were 
continually re-contaminated by the cleanup process anyway. At 
the same time, government dollars were spent to entice 
unsuspecting new residents, including young families, to the 
area. The Lower Manhattan Development Corporation, facing 
vacancy rates as high as 50% in some areas, used this public 
money to fund major rent subsidies for new residents. 
Meanwhile, survivors spent long months in the center of a toxic 
stew as government officials told them any symptoms they 
experienced were in their heads or would disappear as soon as 
the fires went out.
    What the EPA knew, but we didn't, was that the air was not 
safe. Now, in addition to the illnesses and deaths we're seeing 
among responders, the death toll from 9/11-related illnesses is 
also mounting among survivors and new people continue to fall 
ill, many of them my age or younger.
    Like many survivors I now suffer from 9/11-related health 
conditions. Many of these conditions are chronic. My entire 20s 
was dominated by financial panic because even asthma and GERD 
can be quite expensive to treat under our current health care 
system. Adding to that stress is the fact that doctors in 
California, where I live, have often never seen a 9/11 survivor 
and don't understand the unique health risks I face. The World 
Trade Center Health Program has meaningfully changed my life. 
More specifically the Nationwide Provider Network has been a 
huge advantage for the thousands of lower Manhattan students 
who went away to college or started their adult lives 
elsewhere. I used to stockpile asthma medicine and ``wait it 
out'' when I should have gone to the doctor. Thanks to the WTC 
Health Program, I don't have to do those things anymore.
    Unfortunately my future, and that of my classmates, is 
looking a little more scary than chronic-but-hopefully-
manageable health conditions. Back in January 2006, when James 
Zadroga became the first responder to have his death directly 
linked to his exposures on 9/11, an autopsy revealed ground 
glass, asbestos, chromium, lead and benzene in his lung tissue. 
Responders were not the only people exposed to these known 
carcinogens. So were we.
    NIOSH has now linked more than 68 cancers to the WTC 
toxins. Not surprisingly, many former students from the schools 
south of Canal Street, as well as Members of the community and 
people who worked in the area, are now being diagnosed with the 
same cancers as the first responders.
    I already can say that I went to school with more cancer 
survivors than anybody I know, and I haven't even had my 20th 
high school reunion yet. Just in my limited personal network 
from Stuyvesant I know at least five people who have been 
diagnosed with lymphomas, my friend Michele is in remission 
from thyroid cancer, and another classmate from my year is in 
remission from testicular cancer. Other Stuyvesant alumni from 
those years have been diagnosed with rare bone cancers, 
melanoma, and there's even a male breast cancer survivor among 
us.
    Now our classmates, people still in their 20s and early 
30s, are starting to die. Just a couple of months ago a 
classmate of mine, Cathy Choy, passed away at age 33 from 9/11-
linked gastric cancer. Her Victim Compensation Fund award has 
not yet been paid. When her husband finally receives it, it 
will be reduced by either 50% or 70%.
    Stuyvesant students are not the only ones getting sick. 
Rozaliya Yarusska was a 22-year-old Pace University student on 
9/11 and has been diagnosed with nasal cancer and eye cancer. 
Magdali Vergara-Martinez was a 17-year-old BMCC student. She's 
been diagnosed with thyroid cancer. Her VCF award will be cut 
50%. The growing number of cancer cases has had an affect on 
all of us, even those that aren't sick. With each new cancer 
report I also hear from classmates consumed by fears about 
what's around the bend and wondering what we can do to protect 
ourselves.
    The fact that people our age are only starting to get sick 
and die now is not surprising. We were younger when exposed, so 
the latency periods for our illnesses have been longer. For us, 
and for our families, our concern is compounded by the fact 
that the Victim Compensation Fund is closing. While those who 
are sick now will receive drastically reduced awards, many of 
my friends won't find out they're sick in time to make any 
claim at all.
    Women have even more reason to be concerned. Much of the 
early research on 9/11's health impacts was done on the 
disproportionately male responder population. Many women's 
health conditions won't make it onto the list of covered 
conditions in time to be compensable through the VCF. Breast 
cancer has just now surpassed prostate cancer as the most 
commonly diagnosed cancer among survivors, but there still 
isn't much data on women's reproductive health or conditions 
such as autoimmune disorders that disproportionately affect 
women. We've seen the surge in breast cancers in the news, of 
course, but only because an unusual number of these cases are 
in men. One of these men, as I mentioned before, is a classmate 
of mine.
    Young adults are also especially at risk of losing out on 
the VCF because we face some big obstacles to even finding out 
about the 9/11 health services. Like me, many of us no longer 
live in New York City and don't have access to local 
information about the VCF, don't see it reported on in local 
media, and don't have local advocates. This often seems to get 
lost in the conversation about who needs this program and why. 
Stuyvesant alumni alone live in locales from rural Tenessee, to 
coastal Oregon, to Texas and beyond. Thousands of other New 
York City kids have begun their adult lives in other parts of 
the country as well.
    Unfortunately, cancer does not respect arbitrary funding 
deadlines. Right now there are thousands of 17 and 18 year-
olds, just beginning their adult lives, who will have to live 
with the results of their WTC exposures for another 70 or 80 
years. The older exposed kids, people my age, are learning of 
our increasingly terrifying health prospects just as many of us 
are starting families or are planning to in the next few years. 
When we get sick, when we have to take leave from work to 
recover or god forbid pass away from a serious illness with a 
young child at home, who is going to help our families fill in 
the financial gap? A responder or a survivor who gets sick in 
2027 deserves the same help that they would've have received if 
they got sick in 2017.
    Those of us exposed to the toxic dust at Ground Zero as 
kids had our health put at risk before we were old enough to 
understand the risks or give informed consent. Upon our return 
to Stuyvesant we were even paraded in front of news cameras to 
show how ``safe'' it was downtown. Essentially, were 
conscripted into a massive PR effort that encouraged the rest 
of the community to return to a dangerous place even as the 
Federal Government knew the air might make all of us sick. If 
the VCF is allowed to reduce payouts and expire, a resource 
meant to ease our suffering will become yet another symbol of 
how we were sacrificed by a government that thought a quick 
return to normalcy after a tragic event was more important than 
the health and safety of the children who lived through it, the 
responders who cleaned up the mess, and the thousands of area 
workers and residents who were lied to and compelled to put 
their health on the line without their knowledge or consent.
    As health concerns begin to overwhelm us, we hope the 
Federal Government will have our backs. In 2011, and again in 
2015, the Government did the right thing by enacting, and then 
re-authorizing, the Zadroga Health and Compensation Act. 
Congress must do the right thing one more time and fully fund 
and extend the VCF.

    Chairman Nadler. Thank you, Ms. Nordstrom.
    We have been joined by a number of the firefighters who 
were first responders, and I want to welcome them, and by 
Congressman Max Rose, who is a cosponsor of this bill.
    Let me just say, before I recognize the next witness, in 
response to what Ms. Nordstrom just said, as I said before, 
there are really two moral responsibilities. Plenty of people 
got sick and will get sick because of what the terrorists did 
on 9/11, but plenty of people got sick and will get sick 
because of what the Federal Government did in the days 
following.
    I remember very clearly the EPA Administrator saying, ``Go 
back to work. Let's get things back to normal. Everything is 
fine.'' I remember the mayor at the time saying, ``Reopen 
Stuyvesant,'' et cetera. I was calling for parents not to send 
their kids back to Stuyvesant. I was telling people not to go 
back to Wall Street, not to go back to work, because it was 
very evident that it wasn't clear.
    The Federal Government bears a heavy moral responsibility 
for what happened. This bill is only a--if we pass it--when we 
pass it, I hope--would be a very, very small partial repayment 
for that moral obligation.
    Ms. Henry?

            TESTIMONY OF ANESTA MARIA ST. ROSE HENRY

    Ms. Henry. Thank you, Mr. Chairman.
    Chairman Nadler. Can you use your mike, please?
    Ms. Henry. Okay. Thank you.
    Thank you, ladies and gentlemen. My name is Anesta St. Rose 
Henry.
    My husband died a few weeks ago of 9/11-related brain 
cancer. My husband, Candidus, was only 52 years old when he 
died. He missed our son's prom, which was last week, and he 
missed out on our frantic search for a jacket because the one 
we bought was too small and too short.
    Oh, my God.
    So, after that, we were able to get the jacket for our son. 
I just miss my husband because we would have a good laugh at 
that jacket, the way it fit him.
    Candidus was the--oh, God--he was the life of my family. 
Oh, God. He won't be there for my son's graduation, which will 
be on the 19th of this month. Many of the kids his age that 
lost their parents, their parents will not be there for that. 
Also my daughter, his only daughter's wedding, we do not know 
what date is that, but he will not be there to walk her down 
the aisle.
    So not to have to make that--oh, God. Oh, God. So not only 
do I have to make up for his missing presence, but I have to be 
worried about whether we will have enough money for our son's 
college and living expenses. The reason I have to worry is 
because Congress thinks it is okay for my husband's life to be 
worth at least 70 percent less than other construction workers 
that have died or become sick from being at Ground Zero.
    If he died 2 years ago, everything would be okay. I feel 
horrible for those that live--oh, God. I feel horrible for 
those that will die 2 years from now because their family will 
get nothing.
    Candidus was a construction worker and a proud man, 
husband, father, son. He went to work every day. When he was 
assigned to Ground Zero, he was also a proud American.
    His job at Ground Zero was to wash the dust and debris from 
the trucks before they left for the barges and to make sure 
everything was secure, and nothing was sticking out. They 
wanted to be sure human remains were not going to fall off the 
trucks on the way to the barges. While his job may not sound 
glorious, he was proud of it and proud to say he worked at 
Ground Zero.
    After his time at Ground Zero ended, he worked every day as 
a construction laborer, and we raised our family. We are not 
rich, and we lived from paycheck to paycheck, always with some 
sort of credit card bill.
    Although he left Ground Zero in 2002, 15 years later, 
Ground Zero came back to him. Candidus was diagnosed with 
glioblastoma, a rare brain cancer. We were told it was 
extremely rare. We then learned that there are many 9/11 
responders with the same cancer.
    Glioblastoma is a death sentence, and while it took 2 
years, it eventually killed Candidus. It took his mind a few 
months before his death, and while we took care of him for the 
last few months, he was already gone. My son would come home 
from school and my daughter from work and would say, ``Hi, 
Dad,'' and there was only a gaze, and sometimes there was 
nothing. He only wanted to talk to his dad about his day, and 
that was gone.
    When Candidus got sick, that ended the paycheck and 
benefits. Thankfully, the World Trade Center Health Program 
picked up all of the expenses for his care and treatment. They 
were wonderful at the Queens Program, and we wouldn't have 
survived without them.
    We were also able to get some help from the VCF and 
received an award for his cancer. They worked so quickly to get 
that for us because they knew he was dying. Thank you to them 
for that. Please do not cancel them. They are very good. They 
helped us very well.
    Now that Candidus is gone, we do not know what is going to 
happen. We do not have life insurance. We do not have a pension 
or any benefits from his job. Not even his death benefit we 
got. Our only hope was the VCF, and now we do not know if there 
will be much from them now. Because he died after February 2--
which was also his birthday--2019, we will get at least 70 
percent less than others that died sooner.
    My husband was a proud man and never looked down on others 
or thought that he was better, or his life was worth more than 
that, but I can tell you that his life is not worth less than 
anyone else.
    I know my husband would be proud to be here in person and 
talking to you, because we should have to recognize these 
people are worth more than that because they are more important 
than anything else. They were the ones who picked up everything 
else. Now that he is gone, we do not know what we are going to 
do without him.
    Thank you, everyone.
    [The statement of Ms. Henry follows:]

       PREPARED TESTIMONY OF ANESTA MARIA ST. ROSE HENRY

    Good Morning Ladies and Gentleman--
    My name is Anesta St. Rose Henry and my husband died 2 
weeks ago of 9/11 related brain cancer. Candidus was 52 years 
old when he died. He missed our son's prom last week and missed 
out on the frantic search for a jacket for him hours before the 
prom because the one he initially got turned out to be too 
small. So after we were able to get the jacket and our son went 
to his senior prom Candidus wasn't there for me to laugh with 
about the jacket. He will not be there for his high school 
graduation or to walk his daughter down the aisle when she gets 
married. So not only do I have to make up for his missing 
presence, but now I have to be worried about whether we will 
have enough money for college and living expenses.
    The reason I have to worry is because Congress thinks its 
ok for my husband's life to be worth at least 70% less than 
other construction workers that have died or become sick from 
being at Ground Zero. If he died 2 years ago everything would 
be ok. I feel horrible for those that will die 2 years from now 
because their families will get nothing.
    Candidus was a construction worker and a proud man, husband 
and father. He wanted to work every day. When he was assigned 
to work at Ground Zero he was also a proud American. His job at 
Ground Zero was to wash the dust and debris off the trucks 
before they left for the barges and to make sure everything was 
secure and nothing was sticking out. They wanted be sure human 
remains were not going to fall out of the trucks on their way 
to the barges. While his job may not sound glorious, he was 
proud of it and proud to say he worked at Ground Zero.
    After his time at Ground Zero ended he worked every day as 
a construction laborer and we raised our family. We are not 
rich and we lived pay check to pay check, always with some sort 
of credit card bill. Although he left Ground Zero in 2002, 15 
years later Ground Zero came back to him. Candidus was 
diagnosed with Glioblastoma, a rare brain cancer. We were told 
it was extremely rare. We then learned that there are many 9/11 
responders with the same cancer.
    Glioblastoma is a death sentence and while it took 2 years, 
it eventually killed Candidus. It took his mind a few months 
before his death and while we took care of him for the last few 
months, he was already gone. My son would come home from school 
and say ``Hi Dad'' and there was only a gaze sometimes and 
sometimes there was nothing. He only wanted to talk to his dad 
about his day, and that was gone.
    When Candidus got sick that ended the paychecks and 
benefits. Thankfully the World Trade Center Health Program 
picked up all of the expenses for his care and treatment. They 
were wonderful at the Queens Program and we wouldn't have 
survived without them. We were also able to get some help from 
the VCF and received an award for his cancer. They worked so 
quick to get that for us because we they knew he was dying. 
Thank you to them for that.
    But now that Candidus is gone we don't know what is going 
to happen. We do not have life insurance. We do not have a 
pension or any benefits from his job. Our only hope was the VCF 
and now we don't know if there will be much from them now. 
Because he died after February 2, 2019, we will get at least 
70% less than others that died sooner. My husband was a proud 
man and never looked down on others or thought that he was 
better or his life was worth more than others. BUT I can tell 
you that his life is NOT worth less than anyone else.

    Chairman Nadler. Thank you, Ms. St. Rose Henry. Let me say 
that we are here today to help make sure that Congress does not 
think it is okay that your husband's life is worth 70 percent 
less than other construction workers or than anyone else's. I 
thank you for your testimony. It will help in that goal.
    Mr. Mohnal?

                 TESTIMONY OF THOMAS J. MOHNAL

    Mr. Mohnal. Good morning, Mr. Chairman and Members of the 
committee. Thank you for allowing me to testify today.
    My name is Thomas Mohnal, and I began my career with the 
Federal Bureau of Investigation on January 3, 1980, and retired 
on May 30, 2010, as a supervisory special agent explosive and 
hazardous device examiner in the Explosives Unit of the FBI 
Laboratory.
    In the moments after the Pentagon was attacked, I became 
what is known as a 9/11 first responder. Just like others 
sitting with me today, we did our job, and we did it well 
beyond 100 percent. We did everything we could do to rescue 
those that were trapped, and we did everything we could to find 
those who were missing so their families could have the closure 
that they desperately needed.
    Like everyone else here today and all other first 
responders, I will never forget 9/11, and I always knew it 
would be with me. What I didn't know was what that would mean 
some 15 years later to me and my family.
    On 9/11, I was working FBI headquarters in Washington, DC, 
and after the second plane hit the World Trade Center, I was 
directed to go to New York City in response to the FBI 
Laboratory. I departed headquarters en route to my residence in 
Manassas, Virginia, and I was traveling on I-395 South.
    When I was directly across from the Pentagon in stopped 
traffic, at approximately 9:37 a.m., I witnessed American 
Airlines Flight 77 crashing into the Pentagon. I immediately 
notified our headquarters that a plane had crashed into the 
Pentagon and immediately responded to the crash site and 
started lending assistance to victims in the area.
    FBI agents and Members of the evidence response teams from 
Washington field office began arriving very quickly, fully 
aware that the lifesaving and investigative activities that 
they would undertake in response to this terrorist attack could 
put their lives in danger. Evidence response teams from 
Baltimore, Richmond, Norfolk, Charlotte, and Atlanta also 
deployed to the Pentagon.
    On August 4, 2016, I was diagnosed with follicular non-
Hodgkin's lymphoma. I was certified by the World Trade Center 
Health Program and received excellent care and regular 
physicals through that excellent program.
    I am here today to ask Congress why they believe that my 
life is not worth the same as those that became sick before me 
and how my life could be worth more than those that will most 
certainly become ill after me.
    It doesn't care who you are, what you did, or when you did 
it. The guidelines are fair and based on the exposure and your 
illness, and then the compensation is based on the economic 
loss and of that particular illness.
    The Special Master over the years has done a great job on 
managing a program fairly and equally in the face of illness, 
death, and despair. Now, because so many people are becoming 
sick and the funds are running out, the Special Master is being 
forced to look at cases through different lenses based on when 
the forms were filed. That means that our lives and illnesses 
now have a different value and meaning.
    I have had the pleasure to come to the Capitol on several 
occasions now with the FealGood Foundation to walk the halls of 
Congress to ask for support for the 9/11 first responders and 
the Victim Compensation Fund. I have learned that every Member 
in Congress has praised the work of first responders and the 9/
11 first responders. I have learned that on September 11 every 
Member of Congress pauses in remembrance of those that were 
lost that day and those that we will continue to lose. I have 
also learned that every Member of Congress promises to never 
forget.
    I am here to support our colleagues that have become sick 
in the past and those who will become sick in the future. There 
are people in this room right now that will become sick from 
their 9/11 exposure and die. Their families will need the 
support beyond the words ``never forget.''
    Congress has the ability to fix this problem. Nearly every 
FBI evidence response team in the country deployed to one of 
the attack sites to sift through thousands of tons of 
contaminated debris, looking for any shred of evidence that may 
lend assistance in this investigation.
    Passport fragments were found of the hijackers, to include 
the knives that were actually used in the attack were recovered 
from crash sites. This shows the extreme dedication the workers 
had while sifting through contaminated debris, knowing all 
along that this could possibly affect their health.
    Many thousands of Americans, first responders, 
firefighters, police officers, and volunteers have been 
diagnosed with severe health conditions, including cancer, in 
the wake of the attacks. Knowing the type of individuals that 
sacrificed their health and in many cases their lives, they 
would all do the same job all over again for this country.
    This is a nationwide issue, and it must be fixed by our 
leaders in Congress together, as there are no State lines for a 
9/11 illness.
    Thank you for your time.
    [The statement of Mr. Mohnal follows:]

             PREPARED TESTIMONY OF THOMAS J. MOHNAL

    Good morning Mr. Chairman and Members of the committee:
    My name is Thomas J. Mohnal and I began my career with the 
Federal Bureau of Investigation (FBI) on January 3, 1980 and 
retired on May 30, 2010 as a Supervisory Special Agent--
Explosive and Hazardous Device Examiner in the Explosives Unit 
of the FBI Laboratory. On June 1, 2010, I began employment with 
Bode Cellmark Forensics as an Explosive and Hazardous Device 
Contractor for the Explosives Unit of the FBI Laboratory, 
Quantico, Virginia.
    As an Explosives and Hazardous Device Examiner in the FBI 
Laboratory my principal role was to examine evidence pertaining 
to the criminal/terrorist use of explosives and improvised 
explosive devices (IEDs). I have been responsible for the 
supervision, management, and/or coordination of forensic 
examinations and have provided technical and investigative 
support for several hundred highly complex bombing/terrorism 
investigations, to include: The 1993 World Trade Center 
bombing, bombing of the Oklahoma City Federal Building, the 
bombing at the 1996 Atlanta Olympics, the 1998 bombing of the 
U.S. Embassy in Nairobi, the 9/11 terrorist investigation, 
several Vehicle-Borne IEDs in Beirut, Lebanon, the UNABOM 
series from 1982-1996, and the 2005 assassination attempt on 
President Bush in Tbilisi, Georgia.
    In the moments after the Pentagon was attacked, I became 
what is now known as a 9/11 First Responder. Just like the 
others sitting with me we did our job and we did it well beyond 
100%. We did everything we could to rescue those that were 
trapped and, just as important, we did everything we could to 
find those that were missing so that their families could have 
the closure they so desperately wanted. We also made sure that 
the entire world new that we would never back down to terrorism 
and we would move forward, albeit a ``post 9/11 world.'' My 
life was certainly worth no more or less than the other First 
Responders that came to the Pentagon and whether it is 
Shanksville, the World Trade Center or the Pentagon, we were 
one then and we are one now as we sit before you. Like everyone 
else here today and all other first responders, I would never 
forget 9/11 and I always new it would be with me. What I didn't 
know was what that would mean some 15 years later, when 9/11 
took on a whole new personal aspect to me and my family.
    On 9/11/2001 I was working at FBIHQ in the Explosives Unit, 
Laboratory Division and after the second plane hit the World 
Trade Center I was directed to go to New York City in response 
for the FBI Laboratory. I departed FBIHQ enroute to my 
residence in Manassas, Virginia, traveling on I-395 south. When 
I was directly across from the Pentagon in stopped traffic, at 
approximately 9:37 a.m., I witnessed American Airlines Flight 
77 crashing into the Pentagon. I immediately notified FBI 
Headquarters that a plane just crashed into the Pentagon and I 
immediately responded to the crash site and started lending 
assistance to victims in the area. The entire section of the 
crash site was engulfed in a tremendous fire supported from the 
jet fuel. I've done a lot of testing with large amounts of 
explosives, to include gas-enhanced explosions, but I can't 
even describe to you how big and intense the fireball was when 
the plane crashed into the Pentagon. It pretty much encompassed 
the majority of the Pentagon. I spent the entire day at the 
Pentagon providing immediate assistance and on the early 
morning of 9/12/2001 I reported back to the Pentagon to begin 
assisting with the recovery operation and the terrorist 
investigation. I worked the day shift, 10-12 hour days, 5-7 
days per week, from 9/11/2001 until approximately 11/19/2001.
    FBI agents and Members of the Evidence Response Team from 
the Washington Field Office began arriving at the Pentagon 
quickly after the impact, fully aware that the life-saving and 
investigative activities they would undertake in response to 
the terrorist attack could put their lives in danger. Evidence 
Response Teams from Baltimore Maryland, Richmond Virginia, 
Norfork Virginia, Charlotte North Carolina, and Atlanta Georgia 
also deployed to the Pentagon to assists in this terrorism 
investigation. It should be noted that the FBI Evidence 
Response Teams are made up from FBI Special Agents and FBI 
Professional Staff.
    The jet fueled fires continued until the evening of 9/12/
2001, with fires continuing for approximately a week or so. The 
environment during the first several days featured strong 
odors, fumes from jet fuel, and smoldering debris, which 
included plastics, fiberglass, aluminum, and due to the extreme 
temperature of the fires, even some types of metals. Most FBI 
employees remained outside the building on the first day due to 
the extreme hazards inside, although the smoky haze extended 
well outside the Pentagon's walls.
    Early in the first week, I specifically remember being 
inside the Pentagon on the first floor collecting human remains 
into red Hazmat bags, and looking for other potential evidence. 
We would have been inhaling contaminated air from the fire, 
including dust from the building and chemicals from the plane 
to include the jet fuel. During this very crucial first week of 
evidence recovery, fires continued to re-ignite from the 
extreme heat of the original jet fueled fires. This made the 
recovery task very difficult and dangerous from the 
contaminated air and dust filled building.
    I also have a very specific memory of walking through the 
Pentagon, from the outer ring to the inner ring, with Members 
of the Evidence Response Teams to spend time searching for 
evidence near the nose of the plane. We were often leaning down 
over the water, breathing close to the water, to reach for 
something in or under the water. This water and mud contained 
all sorts of toxins, including but not limited to airline fuel 
and chemicals, as well as dust, debris and chemicals from the 
building, and human remains.
    Later in the following weeks, I have a specific memory of 
working in the debris fields of the parking lots surrounding 
the Pentagon with Members of the Evidence Response Teams. We 
would rake through the debris field on the ground, then squat 
or kneel down over it and sift through it with tools or our 
hands to look for human remains or smaller bits of evidence. 
The smallest fragments of evidence, such as an identification 
card of the hijackers would have provided valuable information 
for this investigation. This debris field would have been 
filled with chemicals, debris, human remains and dust from the 
building and airplane.
    Supervisory Special Agents from the FBI Laboratory, 
Explosives Unit, were deployed to all three (3) of the 
terrorist attack sites to lend their expertise in processing 
major crime scenes and provide assistance to the Evidence 
Response Teams. Considering I witnessed one of the worst 
terrorist attacks on United States soil, I had an obligation to 
myself as well as the FBI to continue working at the Pentagon 
crash site until the completion and to provide as much 
assistance and my expertise in this terrorist investigation as 
I possibly could.
    The last couple weeks at the Pentagon migrated into a 
clean-up operation, however, evidence recovery was still a 
major part of the this process. As contaminated debris was 
removed from the interior of the Pentagon, a sifting operation 
took place. Virtually every pile of debris was systematically 
searched for any possible shred of evidence.
    The Explosive Unit was in charge of the evidence from all 
three of the crash sites. I supervised the photographing of the 
evidence sent into the FBI Laboratory from the Pentagon, from 
the World Trade Center Towers, including all evidence recovered 
from the land fill in New York, and evidence recovered from the 
Shanksville, Pennsylvania crash site. This project took place 
in FBIHQ and at off-site locations in Northern Virginia were 
some of the evidence was stored. The photography, review and 
physical bench notes of the evidence recovered from the three 
attacks took several months to complete. Special Agent Bomb 
Technican's from many FBI Field Offices around the country also 
provided assistance in this tremendous task.
    On August 4, 2016, I went to the emergency room with 
extreme stomach pains expecting to find out I had appendicitis. 
In the normal course of care the doctors had ordered a CT scan 
to assess the situation. The CT scan verified that I had a 
ruptured appendix, and also indicated three (3) tumors that 
were consistent with Lymphoma. My appendix was surgically 
removed and I was later diagnosed with Follicular Non-Hodgkin's 
Lymphoma. Over the last 2\1/2\ years I had 18 cycles of 
chemotherapy treatment and currently on a maintenance treatment 
every 8 weeks. I had two bone marrow biopsies, and nine PET/CT 
scans, with my most recent PET scan indicating a moderate 
increase in size and activity in the tumors. I was certified by 
the World Trade Center Health Program on October 3, 2017 and 
have received excellent care and regular physicals through this 
program.
    I am here today to ask why Congress believes that my life 
is not worth the same as those that became sick before me and 
some how my life is worth more than those that will most 
certainly come after me. The September 11th Victim Compensation 
Fund is not a beauty contest. It doesn't care who you are, what 
you did or when you did it. The guidelines are fair and based 
on your exposure and your illness and then compensation is 
supposed to be based on the illness and economic loss. It is 
not a lottery ticket or a get rich quick scheme. The Special 
Master over the years has done a great job of managing a 
program fairly and equally in the face of illness, death and 
despair. Now, because so many people are becoming sick and the 
funds are running out the Special Master is being forced to 
look at cases through different lenses based on when it was 
filed. That means that our lives and illnesses now have 
different values and meanings. THAT IS ABSURD.
    One thing is certain, THE SPECIAL MASTER DOES NOT HAVE THE 
POWER TO FUND THE PROGRAM, I DO NOT HAVE THE POWER TO FUND THE 
PROGAM, NOBODY AT THIS TABLE HAS THE POWER TO FUND THIS 
PROGRAM. ONLY YOU & THE COMMITTEE MEMBERS HAVE THE ABILITY GET 
THE FUNDING TO KEEP THIS PROGRAM RUNNING. ONLY YOU!
    I have had the pleasure to come to the Capitol on several 
occasions now with the FEALGOOD FOUNDATION to walk the halls of 
Congress to ask for support of the 9/11 first responder in the 
VCF. What I have learned was quite eye opening, even given my 
exceptionally unique career in law enforcement. I have learned 
that every member of Congress has praised the work of first 
responders and 9/11 first responders. I have learned that every 
September 11 that every member of Congress pauses in 
remembrance of those lost that day and those that we continue 
to lose. I have learned that every member of Congress promises 
to ``Never Forget.'' Despite all that I have learned from 
coming here I do not understand why WE have to be here today.
    I am here to support my colleagues that have become sick in 
the past and those that will become sick in the future. There 
are people in this room right now that will become sick from 
their 9/11 exposures and die. Their families will need the 
support beyond the words ``Never Forget.'' Their lives are 
worth less than mine because they got sick later than I did. I 
do not really think about those that may receive a higher award 
than my family does. I don't know why, but I just do not. 
HOWEVER, I DO THINK ABOUT THOSE THAT WILL GET LESS THAN I DO 
and it's a HORRIBLE FEELING.
    YOU ARE PUTTING US IN A POSITION WHERE WE HAVE TO SEE 
OTHERS WITH THE SAME ILLNESSES GET LESS. THAT'S A HORRIBLE 
FEELING. MANY OF US ALREADY DEAL WITH THE QUESTION OF WHY WE 
DIDN'T PERISH THAT DAY OR OF ILLNESSES SINCE. THAT'S HEAVY 
ENOUGH. NOW WE HAVE TO THINK THAT WE MAY HAVE RECEIVED MORE 
THAN SOMEONE ELSE? THAT'S NOT A GOOD FEELING.
    CONGRESS has the ability to fix this problem. While we all 
may have somewhat different 9/11 experiences, we were all 
together then, now and in the future. My agency is an example 
of how people came from all over the country to assist at the 
disaster sites. It is also an example of how the illnesses did 
not care where you responded to or where you were from. We have 
lost at least 16 Members of the FBI to 9/11 illness from their 
duty at The Pentagon, Shanksville and Ground Zero. This is a 
nationwide issue and it must be fixed by our leaders in 
Congress together, as there are NO STATE LINES for 9/11 
illnesses and deaths.
    It should also be noted that nearly every FBI Evidence 
Response Team in the country deployed to one of the attack 
sites to sift through thousands of contaminated metric tons of 
debris looking for any shread of evidence that may lean 
assistance in this investigation. Passport fragments of the 
Hijackers, to include the knives that were used in the attack 
were recovered from the crash sites. This shows the extreme 
dedication the Members of the Evidence Response Teams had while 
sifting through tons of contaminated debris, knowing all along 
that this could possibly affect their health.
    As the years have passed, the survivors and first 
responders of that day have had to deal with another 
challenging reminder of our nation's tragedy. Many thousands of 
Americans, First Responders, Fire Fighters, Police Officers and 
Volunteers have been diagnosed with severe health conditions, 
including cancer, in the wake of the attacks. Knowing the type 
of individuals that sacrificed their health and in many cases 
their lives, including myself, would all do the same job all 
over again for this country.

    Chairman Nadler. Thank you.
    Mr. O'Connell?

                 TESTIMONY OF MICHAEL O'CONNELL

    Mr. O'Connell. Good morning.
    Chairman Nadler. Actually, Lieutenant O'Connell.
    Mr. O'Connell. My name is Michael O'Connell, and I am a 
retired lieutenant from the New York City Fire Department.
    I want to personally thank Chairman Nadler, Ranking Member 
Collins, and the Committee Members for allowing me to be here 
today at this hearing to tell my story, which is really no 
different from the thousands of others who suffer from their 
heroic actions.
    Today, I can say thank you to the countless selfless 
heroes, volunteers, survivors, and those affected at the three 
terrorist sites because I get the best healthcare treatment and 
I have been compensated by the September 11th Victim 
Compensation Fund.
    I was just a 25-year-old probationary firefighter on that 
beautiful Tuesday morning of the 11th without a clue as to what 
was happening. I had just transferred from the NYPD in May of 
2001 and was not even graduated from the FDNY Fire Academy on 
that horrific day.
    When the towers were struck, I was home on Long Island and 
immediately raced into Ladder 129 in Flushing, Queens, where I 
was doing my field training. Within minutes of my arrival, we 
started to respond to Lower Manhattan.
    During our response, we were notified of the collapse of 
the south tower of the World Trade Center, and a fellow 
firefighter turned to me and said, ``Do you realize how many 
guys we just lost?'' The truth was I didn't have a clue, but I 
would learn quickly.
    Upon arrival, we went to work right away in the war zone 
later known as Ground Zero. We were given many tasks and tried 
our best to search for human life, but unfortunately, we 
weren't very successful. Countless hours we spent digging by 
hand.
    To this day, there is only one memory etched into my brain 
and one that still haunts me to this day and every night. As 
firefighters, we wear Scott packs that are equipped with pass 
alarms. Pass alarms are meant to go off when a firefighter is 
laid motionless, making a screeching sound so you can go find 
them. Well, for the first few minutes of our arrival and the 
countless hours that passed, that is all we heard. That was our 
brothers trapped beneath the pile of concrete and steel, and we 
could not get to them.
    It is a difficult memory but one that keeps me going. It 
reminds me that those men and women who gave their lives that 
day were selfless. I try my best to live my life to that 
standard every day.
    In the midst of the chaos and loss of life, I can tell you 
that there is another thought that I had: I would not want to 
be anywhere else in the world at that moment. We were there to 
help, and I was part of something that showed the world that we 
would not back down to anyone. We helped bring closure to 
families that just wanted something tangible, some part that 
remained to bury.
    Now it is your turn. You were not there on the pile with 
us, but what you do in this moment is as important as what we 
did at Ground Zero.
    I had worked the pile for days and weeks that followed, 
with very little protection in the dust cloud, and I would 
later pay the ultimate price. The change came on January 1 of 
2007 when I woke up and instantly knew something was wrong. I 
couldn't get out of bed, and it felt like somebody came into 
the room that night and beat me up with a baseball bat. My 
ankles, my legs, my feet were so swollen it made it difficult 
to even walk to the car to get to the doctor.
    I was put through a series of tests, and from what the 
doctors had seen, the prognosis did not look good. My wife 
Rebecca, who was 6 months pregnant with our first child, was 
escorted to a conference room, where a team of doctors waited 
for us to give us the news and told us that this looked like an 
advanced case of lymphoma and that I most likely didn't have 
much time to live.
    At this point, all I wanted to do was make it long enough 
to see the birth of my first child. It is obvious, since I am 
testifying here today, and by the grace of God, I am able to be 
here to tell my story. I am a proud father of three beautiful 
children named Aidan, Colton, and Alexandra, all of which 
witnessed their father battle 9/11 illnesses from the time they 
were born.
    I was very fortunate that the original prognosis was wrong, 
and I was actually diagnosed with a rare autoimmune disease 
called sarcoidosis. I was one of the youngest and first 
firefighters diagnosed with sarcoidosis, but hundreds more have 
been diagnosed since. I spent the next few months in recovery, 
and with the proper treatments, I was able to get back on my 
feet. Sadly, I cannot say that about others.
    My career in the FDNY that I was so passionate about was 
cut short, and 9/11 ensured I would be unable to continue as a 
full-duty firefighter, as I was deemed disabled. I was on pace 
to advance through the FDNY as a senior officer, but I was 
unable to finish that dream of protecting the greatest city in 
the world.
    I ask you all respectfully, how is it fair that I was duly 
compensated but others that are now sick and dying from their 
exposure will not be? It seems unfair that I was unlucky enough 
to get sick but lucky that I got sick early enough so that I 
could avoid potential cut or, worse, having no VCF as of 
December 2020.
    How is my family financially safe for a lifetime but the 
families of those not diagnosed are left hanging? These people 
are getting sick 18 years later and are not going to receive 
the same benefits as those who got sick before them because 
they were unlucky to get sick at a time when the VCF is running 
out of funds.
    I speak today in tribute to the 343 firefighters, the 23 
NYPD, and the 37 Port Authority Police officers that didn't 
make it out on September 11, 2001, and to the thousands who are 
still sick and who are dying, and especially for my brother, 
Ray Pfeiffer from the FDNY, who is no longer with us.
    I promised myself to keep fighting for my family and for 
those who are sick or have passed and yet to be compensated, 
because one day I might not be here to tell my story. There 
will be someone else to follow and continue the tradition--a 
tradition that is rich in history and a tradition where no one 
is left behind.
    In closing, I have made countless trips to the Hill with 
the men and women who sit behind me. We came together to join 
forces on the FealGood Foundation team from all walks of life--
cops, firefighters, construction workers, correction officers, 
civilians, lawyers, students, widows--with one common goal. We 
are simply imploring this Committee to extend and refund the 
VCF so that thousands of people across this great Nation get 
the help that they deserve and they have earned.
    Thank you for your time today, Chairman, Ranking Member, 
and the committee. God bless you, God bless all those sitting 
behind me, and God bless America.
    [The statement of Mr. O'Connell follows:]

            PREPARED TESTIMONY OF MICHAEL O'CONNELL

    My name is Michael O'Connell and I am a retired Lieutenant 
from the Fire Department of the City of New York. I want to 
personally thank Chairman Nadler, Ranking Member Collins, and 
the Committee Members for allowing me to be here today at this 
hearing to tell my story, which is really no different from the 
thousands of others who suffer from their heroic actions.
    Today, I can say thank you to those countless selfless 
heroes, volunteers, survivors, and those affected at the three 
terrorist sites because I get the best health care treatment 
and I have been compensated by the September 11th Victim 
Compensation Fund.
    I was just a twenty-five year old probationary firefighter 
on that beautiful Tuesday morning of the 11th, without a clue 
as to what was happening. I had just transferred from the New 
York City Police Department in May of 2001, and was not even 
graduated from the FDNY Fire Academy on that horrific day.
    When the towers were struck, I was home on Long Island and 
immediately raced into the Ladder 129 Fire House in Flushing, 
Queens where I was doing my field training. Within minutes of 
my arrival, we started to respond to Lower Manhattan.
    During our response we were notified of the collapse of the 
south tower of the World Trade Center and a fellow firefighter 
turned to me and said, ``do you realize how many guys we just 
lost?'' The truth was that I didn't have a clue, but I would 
learn quickly.
    Upon arrival, we went to work right in the war zone later 
known as ``Ground Zero.'' We were given many tasks and tried 
our best to search for human life, but unfortunately, we were 
not very successful. Countless hours we spent digging by hand.
    To this day, there is only one true memory etched into my 
brain, and one that still haunts me when I put my head on the 
pillow at night. As firefighters, we wear Scott packs that are 
equipped with pass alarms. A pass alarm is meant to go off and 
make a loud screeching sound in the likelihood that a 
firefighter is stuck and is motionless. For the first few 
minutes of our arrival, and the countless hours that passed, 
that is all we heard. Our brothers were trapped beneath that 
pile of concrete and steel and we could not get to them. It is 
a difficult memory, but one that keeps me going. It reminds me 
that those men and women who gave their lives that day were 
selfless, and I try my best to live my life to that standard.
    In the midst of the chaos and loss of life, I can tell you 
that there is another thought that I had. I would not want to 
be anywhere else in the world at that moment. We were there to 
help, and I was part of something that showed the world that we 
would not back down to anyone. We helped bring closure to 
families that just wanted something tangible, some part that 
remained, to bury. Now it is your turn, you were not there on 
the Pile, but what you do in this moment is just as important 
as what we all did at Ground Zero.
    I had worked the pile for the days and weeks that followed, 
with very little protection in that dust cloud, and I would 
later pay the ultimate price. That change came on January first 
of 2007, when I woke up, and instantly knew something was 
wrong. I couldn't get out of bed, and it had felt like someone 
came in my room that night, and beat me up with a baseball bat. 
My legs, ankles and feet were so swollen, it made it very 
difficult to walk to the car to get to the doctor. I was put 
through a series of tests that day, and from what the doctors 
had seen, the prognosis did not look good.
    My wife Rebecca, who was six months pregnant with our first 
child, was escorted to a conference room where the team of 
doctors gave us the news: that this looked like an advanced 
case of lymphoma, and that I most likely did not have much time 
left. At this point, all I wanted to do was make it long enough 
to see the birth of my first child.
    It is obvious that, since I am testifying here today, and 
by the grace of God, we know what happened. I am a proud father 
of three beautiful children named Aidan, Colton, and Alexandra, 
who have witnessed their father battle 9/11 illnesses since 
they were born.
    I was very fortunate that the original prognosis was wrong. 
I was actually diagnosed with a very rare autoimmune disease 
called sarcoidosis. I was one of the youngest and first 
firefighters diagnosed with sarcoidosis. Hundreds more have 
been diagnosed since.
    I spent the next few months in recovery, and with the 
proper treatments, I was able to get back on my feet. Sadly, I 
cannot say that about others.
    My career in the FDNY that I was so passionate about was 
cut short, and 9/11 ensured I would be unable to continue as a 
full duty firefighter. I was on pace to advance throughout the 
FDNY as a senior officer, but I was unable to finish that dream 
of protecting the greatest city in the world.
    I ask you all, respectfully, how is it fair that I was duly 
compensated, but others that are now sick and dying from their 
exposure will not be? It seems unfair that I was unlucky to get 
sick, but lucky in that I got sick early, so that I could avoid 
a potential cut, or worse, having no VCF after December 2020?
    How is my family financially safe for a lifetime, but the 
families of those not yet diagnosed are left hanging? These 
people are sick eighteen years later, and are not going to 
receive the same benefits as those who got sick before them, 
because they are unlucky to get sick at a time when the VCF is 
running out of funds.
    I speak today in tribute to the 343 firefighters, the 23 
NYPD, and the 37 PAPD that didn't make it out on September 11, 
2001, and to the thousands who are still sick, and who are 
dying, and especially for my brother firefighter Ray Pfeiffer 
of the FDNY and who is no longer with us. I promised myself to 
keep fighting for my family, and for those who are sick or who 
have passed and have yet to be compensated. Because one day, I 
might not be here to tell my story, but there will be someone 
else to follow and continue that tradition, a tradition that is 
rich in history, and a tradition where we leave no one behind.
    In closing, I have made countless trips to the hill with 
the men and women behind me. We are simply imploring this 
Committee to extend and re-fund the VCF, so that thousands of 
people across our great Nation get the help that they deserve 
and they have earned.
    Thank you for your time today, Chairman, Ranking Member, 
and the Committee. God bless you and God bless those behind me, 
and God bless America.

    Chairman Nadler. Thank you very much, Lieutenant.
    Detective Alvarez?

                   TESTIMONY OF LUIS ALVAREZ

    Mr. Alvarez. Good morning, ladies and gentlemen. My name is 
Luis Alvarez, and I am a retired NYPD detective from the bomb 
squad and a proud military veteran.
    Less than 24 hours from now, I will be starting my 69th 
round of chemotherapy. Yeah, you heard that correct. I should 
not be here with you, but you made me come. You made me come 
because I will not stand by and watch as my friends with cancer 
from 9/11, like me, are valued less than anyone else because of 
when they get sick or they die.
    I have been lucky enough to have had 68 rounds of chemo. 
Yeah, you heard me right--68 rounds. Many others haven't had 
the opportunity to have five, and some have had none. Their 
families would love to have the time with them that mine has 
had with me.
    I have been lucky enough to have the pain and suffering of 
69 rounds of chemo and countless other treatments and 
surgeries, it is my goal and it is my legacy to see that you do 
the right thing for all 9/11 responders.
    Please understand that we are not here for anything for 
ourselves. We became police officers, firefighters, paramedics 
to help others. We went to Ground Zero, the Pentagon, and 
Shanksville to help people first and then help their families 
bury someone or something. We were there with one mission, and 
we left after completing that mission.
    I have been to many places in this world and done many 
things, but I can tell you that I did not want to be anywhere 
else but Ground Zero when I was there. We were part of showing 
the world that we would never back down from terrorism and that 
we could all work together--no races, no colors, no politics.
    Now the 9/11 illnesses have taken many of us, and we are 
all worried about our children and spouses and our families if 
we are not here. The VCF has done a wonderful job and treated 
my family with greatest respect. My life isn't worth more than 
the next responder to get cancer. My family's needs are not 
worth less than any others who have already died.
    This fund is not a ticket to paradise. It is there to 
provide for our families when we can't. Nothing more.
    You all said you would never forget. Well, I am here to 
make sure that you don't. You made me come down here the day 
before my 69th round of chemo, and I am going to make sure that 
you never forget to take care of the 9/11 responders.
    Thank you for your time.
    [The statement of Mr. Alvarez follows:]

               PREPARED TESTIMONY OF LUIS ALVAREZ

    Good Morning Ladies and Gentleman--
    My name is Luis Alvarez and I am a retired NYPD Detective 
from the Bomb Squad and proud military veteran. Less than 24 
hours from now I will start my 69th Round of Chemotherapy. Yes 
that's correct 69th Round.
    I should not be here today but YOU made me come. YOU made 
me come because I will not stand by and watch as my friends 
with cancer from 9/11 like me are valued less than anyone else 
is because of when they get sick or die.
    I have been lucky enough to have 69 rounds of chemo. Yes i 
said lucky. Many others only had 5 and some had none. Their 
families would love to have had the time with them that mine 
has had with me. So because I have been lucky enough to have 
the pain and suffering of 69 rounds of chemo and countless 
other treatments, it is my goal and will be my legacy to see 
that YOU do the right thing for all 9/11 responders.
    Please understand that we do not want ANYTHING for 
ourselves. We became police officers, fire fighters, paramedics 
to help others. We went to Ground Zero, the Pentagon and 
Shanksville to help people first and then to help their 
families bury something. We were there together with one 
mission and we left after completing the mission.
    I have been to many places in this world and done many 
things but I can tell you that I did not want to be anywhere 
else but Ground Zero when I was there. We were part of showing 
the world we would never back down from terrorism and that we 
could all work together. No races, no colors and no politics.
    Now the 9/11 illnesses have taken many of us and we are all 
worried about our children, our spouses and our families and 
what happens if we are not here. The VCF has done a wonderful 
job and treated my family with great respect. But my life isn't 
worth more than the next responder to get cancer. My family's 
needs are not worth less than others that have already died.
    This fund is not a lottery ticket to paradise. It is there 
to provide for our families when we can't. Nothing more.
    Those of us that were at Ground Zero, the Morgue, Fresh 
Kills Landfill, the Pentagon and Shanksville WILL NEVER FORGET. 
Every single member of Congress has said they will NEVER FORGET 
and they say NEVER FORGET every September 11th. Its NOT one day 
per year for many of us, it's ever day.
    You all said you would ``Never Forget.'' Well I am here to 
make sure that you don't. I am here because others cannot get 
here. I would rather be back at Ground Zero again than be here, 
working together.
    YOU MADE ME COME HERE THE DAY BEFORE MY 69th ROUND OF CHEMO 
and I am going to make sure you NEVER FORGET to take care of 
the 9/11 Responders.
    I am going to leave you with this . . . . I will complete 
my 69th round of chemo tomorrow . . . for a moment I want you 
to think about how many tens of thousands of rounds of chemo 
the 9/11 first responders have completed so far and how many 
tens of thousands are still come . . . .
    WE DID THAT FOR YOU & WE WILL KEEP DOING IT . . . . PLEASE 
DO NOT DISRESPECT US & MAKE US BEG FOR OUR FAMILIES.

    Chairman Nadler. Thank you, Detective Alvarez.
    Mr. Stewart?

                    TESTIMONY OF JON STEWART

    Mr. Stewart. I want to thank Mr. Collins and Mr. Nadler for 
putting this together, but as I sit here today, I can't help 
but think what an incredible metaphor this room is for the 
entire process that getting healthcare and benefits for 9/11 
first responders have come to: Behind me, a filled room of 9/11 
first responders; and in front of me, a nearly empty Congress.
    Sick and dying, they brought themselves down here to 
speak--to no one. It is shameful. It is an embarrassment to the 
country, and it is a stain on this institution. You should be 
ashamed of yourselves, for those that aren't here, but you 
won't be, because accountability doesn't appear to be something 
that occurs in this chamber.
    We don't want to be here. Lu doesn't want to be here. None 
of these people want to be here. They are not here for 
themselves. They are here to continue fighting for what is 
right.
    Lu is going to go back for his 69th chemo. The great Ray 
Pfeiffer would come down here, his body riddled with cancer and 
pain to where he couldn't walk. The disrespect shown to him and 
to the other lobbyists on this bill is utterly unacceptable.
    I would be so angry at the latest injustice that is done to 
these men and women and another business card thrown our way as 
a way of shooing us away like children trick-or-treating rather 
than the heroes that they are and will always be. Ray would 
say, ``Calm down, Johnny. Calm down. I got all the cards I 
need.'' He would tap his pocket where he kept the prayer cards 
of 343 firefighters.
    The official FDNY response time to 9/11 was 5 seconds. Five 
seconds. That is how long it took for FDNY, for NYPD, for Port 
Authority, for EMS to respond to an urgent need from the 
public. Five seconds.
    Hundreds died in an instant. Thousands more poured in to 
continue to fight for their brothers and sisters.
    The breathing problems started almost immediately, and they 
were told they weren't sick, they were crazy. Then, as the 
illnesses got worse and things became more apparent, ``Well, 
okay, you are sick, but it is not from the pile.'' When the 
science became irrefutable, ``Okay, it is the pile, but this is 
a New York issue. I don't know if we have the money.''
    I am sorry if I sound angry and undiplomatic, but I am 
angry. You should be too. They are all angry as well, and they 
have every justification to be that way.
    There is not a person here, there is not an empty chair on 
that stage that didn't tweet out: Never forget the heroes of 9/
11, never forget their bravery, never forget what they did, 
what they gave to this country.
    Well, here they are. Where are they?
    It would be one thing if their callous indifference and 
rank hypocrisy were benign, but it is not. Your indifference 
cost these men and women their most valuable commodity: Time. 
It is the one thing they are running out of.
    This should be flipped. This hearing should be flipped. 
These men and women should be up on that stage, and Congress 
should be down here answering their questions as to why this is 
so damn hard and takes so damn long and why, no matter what 
they get, something is always pulled back and they have to come 
back.
    Mr. Johnson, you made a point earlier, and it was one that 
we have heard over and over again in these halls, and I 
couldn't help but to answer to it--you guys are obviously 
heroes, and 9/11 was a big deal, but we have a lot of stuff 
here to do. We have to make sure there is money for a variety 
of disasters--hurricanes and tornadoes.
    This wasn't a hurricane and this wasn't a tornado. By the 
way, that is your job anyway. We can't fund these programs. You 
can.
    Setting aside that no American in this country should face 
financial ruin because of a health issue, certainly 9/11 first 
responders shouldn't have to decide whether to live or to have 
a place to live.
    The idea that you can only give them 5 more years of the 
VCF because you are not quite sure what is going to happen 5 
years from now? Well, I can tell you, I am pretty sure what is 
going to happen 5 years from now: More of these men and women 
are going to get sick, and they are going to die.
    I am awfully tired of hearing that it is a 9/11 New York 
issue. Al-Qaida didn't shout ``Death to Tribeca.'' They 
attacked America. These men and women and their response to it 
is what brought our country back. It is what gave a reeling 
Nation a solid foundation to stand back upon, to remind us of 
why this country is great, of why this country is worth 
fighting for. You are ignoring them and you can end it 
tomorrow.
    Why this bill isn't unanimous consent and a standalone 
issue is beyond my comprehension. I have yet to hear a 
reasonable explanation for why. It will get stuck in some 
transportation bill or some appropriations bill and get sent 
over to the Senate, where a certain someone from the Senate 
will use it as a political football to get themselves maybe 
another new import tax on petroleum. Because that is what 
happened to us in 2015. We won't allow it to happen again.
    Thank God for people like John Feal, thank God for people 
like Ray Pfeiffer, thank God for all these people who will not 
let it happen. They responded in 5 seconds. They did their jobs 
with courage, grace, tenacity, humility. Eighteen years later, 
do yours.
    Thank you.
    [The statement of Mr. Stewart follows:]

               PREPARED TESTIMONY OF JOHN STEWART

    Chairman Nadler, Ranking Member Collins and Members of the 
Committee, thank you for letting me join these 9/11 responders 
and survivors, these heroes, today on this panel.
    Thank you for this hearing today on the September 11th 
Victim Compensation Fund and the legislation Never Forget the 
Heroes: Permanent Authorization of the September 11th Victim 
Compensation Fund--that would fully fund the program and extend 
its authorization.
    You have just heard in agonizing detail why you need to Act 
on this legislation.
    Many talk about 9/11 and how the country responded to it, 
but frankly the response on the impact of the toxins at Ground 
Zero, as these men and women have outlined, has not been as 
good as it should have been--to say the least.
    First, the issues these heroes face is squarely the fault 
of terrorists. But in the rush to get Wall Street open again 
and move people back in, mistakes were made.
    People--local residents, students and commuters into the 
area (as well as responders)--were told that the air was safe. 
But it was not. Children were brought back to school next to a 
toxic pit--and then it was denied--for years--that there was a 
health problem. Those who responded and worked in the pit--and 
had the most exposure--were of course the first to feel the 
effects. Soon residents became ill, too--with persistent coughs 
or rare cancers.
    So, for many years since 9/11, these responders and 
residents had to walk the halls of Congress, looking to see if 
``Remember 9/11'' is more than a cheap twitter slogan senators 
and representatives use to nod in the direction of empathy 
without having to do anything.
    They had to work to get Congress to provide Health care for 
these injuries from toxins; they had to work to get 
compensation for the injuries so that their families would not 
suffer.
    First responders, firefighters, police, construction 
workers, Red Cross volunteers, transit workers, FBI agents and 
schoolteachers have had to go door to door down your gold- and 
marble-lined hallways, because 17 years after the attacks on 9/
11, they and their families are still dealing with the impact 
of the toxins at Ground Zero.
    They are in every State and 433 out of 435 Congressional 
Districts.
    The fact that they have had continue to do this is beyond 
my comprehension.
    I have to say that my impression of Washington might be 
changing.
    Some things are getting done.
    Just a few weeks ago I said that the Trump Justice 
Department was doing a good job running the program, I would 
never have thought that I would say it, but I did because it is 
true.
    The fact that this hearing is happening in this Committee 
today is heartening. I understand there has been some recent 
unpleasantness.
    This legislation has over 300 bipartisan sponsors. 300 
Members of the House agreeing to take action is pretty good.
    I want to thank Ranking Member Collins for his support 
today; he and Mr. Nadler have set an example that the parties 
can come together. All of the support gives me some hope.
    There seems to be a general understanding and agreement 
that compensating the 9/11 heroes through this bill needs to 
happen. I thank all of you--Republicans and Democrats--for 
that.
    These people can't wait--the cuts to them or their 
survivors are happening now.
    I know that this is going to cost a lot, but you need 
figure out how to pay for it.
    It is not their job to tell you how to pay for it--they did 
their job.
    I ask you to move this bill and get it to the floor.
    Two weeks ago, I was at Ground Zero for the dedication of 
the National September 11th Memorial, for the dedication of a 
new memorial glade, with ragged stone monoliths that honor 
those who have become ill and those that have died from 9/11 
related illnesses.
    The space will never bring closure to those who have lost 
so much and continue to suffer so deeply, but it recognizes the 
great courage and strength they gave so willingly and the price 
they continue to pay.
    But they need this bill. Please help them.

    Chairman Nadler. Thank you, Mr. Stewart.
    We will now proceed under the 5-minute Rule with questions, 
and I will begin by recognizing myself for 5 minutes.
    Ms. Bhattacharyya, what are some of the factors that have 
led to the increase in the number of claims that the VCF has 
seen over the last year? And how should these factors influence 
Congress' decision-making as it determines whether and how best 
to reauthorize the VCF?
    Ms. Bhattacharyya. Thank you, Mr. Chairman. I appreciate 
the question.
    There have been, I think, four major changes in the VCF 
over the last few years from what Congress saw when it last 
reauthorized this bill in 2015 and allocated the $7.375 
billion.
    The first is that the total number of claims that have been 
filed has increased significantly. In the first 5 years of the 
fund, from 2011 to 2016, we had just over 19,000 compensation 
forms filed. In the last 2-1/2 years, we have received 28,000 
more.
    The reasons for those, I think, are three. The first is 
that there is a significant increase in the number of claims 
being filed on behalf of victims who have died as a result of 
their 9/11-related conditions as we get further away from the 
attacks. As the seriousness of the illnesses become more 
apparent, we see more and more of these claims. At the end of 
2015, we had just 600 deceased claims. We now have well over 
2,000 of them.
    The second thing is that the number of claimants with 
cancer conditions continues to increase. We have found over 
8,800 claimants eligible because of a cancer condition, and we 
have made over 7,500 awards due to cancers. In 2015, we had 
seen only a fraction of that number.
    The third is that we are seeing a substantial increase in 
claims filed by the survivor community, those who lived, 
worked, or went to school in the area. In the first 5 years of 
the program, survivor claims were just 14 percent of the awards 
that were made. Now they account for almost 40 percent of the 
claims that are being filed.
    We think that is due to two things. The first are the 
increase in cancer rates, and the second is that the VCF 
suffered from a significant information gap in the early years 
of the program. Many people in the New York area were under the 
assumption that the program was only for first responders, and 
as we have been able to do more outreach, as the World Trade 
Center Health Program has been able to do more outreach, partly 
because of the reauthorization of the bill in 2015, we have 
been able to reach more people who are sick, more people who 
are dying, and those claims are now coming in.
    Chairman Nadler. Thank you.
    In your written testimony, you note that, in determining 
the amount of noneconomic loss for a claimant, collateral 
offsets must be subtracted in full from any reduced award 
amount.
    In light of this, is it possible that some claimants may, 
in fact, end up with no money despite the fact that they are 
legally entitled to money from the VCF?
    Ms. Bhattacharyya. So, yes, Congressman, that is possible.
    Chairman Nadler. Thank you.
    Dr. Moline, how many more people do you think would be at 
risk of developing 9/11-related illnesses, including cancers, 
in the next 25 to 50 years? Is it possible to know the exact 
number of people who will develop illnesses at this point in 
time?
    Dr. Moline. It is not possible to know the exact number, 
but based on the rates that are increasing, there are going to 
be 10,000 to 20,000 more cancers, I would estimate.
    Chairman Nadler. 10 thousand to 20,000 more cancers?
    Dr. Moline. Yes.
    Chairman Nadler. Plus, other diseases?
    Dr. Moline. Plus, other diseases. As we heard about 
sarcoidosis, which is a fairly rare disease but is common in 
World Trade Center-exposed individuals.
    We are going to see folks who have lung diseases that may 
require lung transplants. There have already been a number of 
individuals in the World Trade Center Health Programs that have 
required lung transplants due to scarring of the lungs from the 
glass and the concrete and everything else that caused a 
reaction in their lungs.
    Chairman Nadler. So, as an order of magnitude, you said 
about 30,000, 40,000, maybe?
    Dr. Moline. You know, it is hard to predict, but based on 
the rates and the number of folks that were exposed, that 
number is accurate.
    Chairman Nadler. Thank you.
    Ms. Nordstrom, while the terrorists who carried out the 
attacks against the United States on 9/11 bear the ultimate 
responsibility for all the harms caused by the attacks, you 
note the Federal Government's responsibility in heightening the 
risk to responders and Members of the community in the days 
after the attacks.
    In particular, the EPA at the time gave false assurances 
that the air around Ground Zero was, quote, ``safe to 
breathe,'' assurances for which the then-EPA Administrator has 
since apologized and acknowledged were wrong.
    As a matter of moral responsibility, do you agree that 
Congress, as representatives of the American people, should 
help to give some measure of compensation to victims for the 
harms they have suffered that were exacerbated by the 
government's own actions at the time?
    Ms. Nordstrom. I think they absolutely should.
    I mean, I am sitting before you as someone who was present 
on 9/11 but I was not caught in the dust cloud. There is no 
reason that my respiratory health or my gastrointestinal health 
should have been impacted by the events of 9/11. I only have 
these conditions because I was sent back. I was only sent back 
because the Federal Government assured New Yorkers that the air 
downtown was safe to breathe.
    I was a child at the time; I was in no position to make 
that decision for myself. I was not only following the wishes 
of the adults in my life, but also the wishes of the 
government, which at every level, seemed to assure us that we 
were going to be fine in an environment where we were 
surrounded by dust and debris and fires that would burn for 
another 4 months.
    Chairman Nadler. Thank you.
    My time has expired.
    Mr. Johnson?
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    Thank all of you. There are too few issues today that draw 
everybody in Congress together. This is one of them.
    Mr. Stewart, what you said is exactly right. I would not 
interpret some of the empty chairs as indifference. By virtue 
of its jurisdiction, this is a Subcommittee of House Judiciary. 
If it were the full committee, you would have many more Members 
here. Because we are a subcommittee, sometimes the scheduling 
gets crossed with other larger full Committee hearings. Some of 
them are there this morning and they send their regrets.
    We are going to make them all watch this tape, because the 
testimony was so compelling. I have been in politics a while. I 
can't recall being so moved by testimony as I was today. I 
cried through most of this. All of us did. It is just 
incomprehensible, what the terrorists did to our Nation and the 
harm that it continues to inflict.
    So, if it is any comfort to you all, we know this bill is 
going to pass with an overwhelming landslide majority of the 
House. It may be unanimous, or close to it as it should be.
    [Applause.]
    Mr. Johnson of Louisiana. Yeah, I will. I will.
    As I said in my opening statement, I mean, I am the son of 
a disabled, permanently injured first responder myself. My dad 
was a fire captain. So, I get it. I know what you have been 
through. That is why it was so painful to hear your personal 
stories, because I have lived it myself. So, I get that.
    I said in the opening remarks, just as we do with 
everything, we want to do the fair and just thing, we want to 
compensate everyone. But we also have a fiscal responsibility 
thing that we have to be mindful of the whole time, and that is 
the only question.
    So, I just have one question.
    Ms. Bhattacharyya, the CBO can't give us a score on this. 
They won't. We are marking it up tomorrow. It is going to pass 
committee. I think it is going to sail through, but has your 
office done any kind of estimate on the total cost of what this 
will be ultimately?
    Ms. Bhattacharyya. So, Congressman, we have done 
projections about what we expect the total cost would have been 
had we not done reduced awards for claims expected to be filed 
through December 18, 2020, which is the current sunset date. We 
believe that we would need about $12 billion to compensate all 
the claims expected to be filed by that date, which is about $5 
billion more than we currently have.
    We have not done any projections beyond that closing date.
    Chairman Nadler. Would the gentleman yield for a moment?
    Mr. Johnson of Louisiana. Sure.
    Chairman Nadler. I just want to say, CBO is scoring the 
bill.
    Mr. Johnson of Louisiana. They are?
    Chairman Nadler. They are scoring it. We don't know and 
they don't know when they will have a score, but they are 
scoring it.
    Mr. Johnson of Louisiana. It will be after the fact, but 
that is fine.
    Mr. Stewart. I don't know how to do this, but can I add to 
that--
    Mr. Johnson of Louisiana. I will yield to you.
    Mr. Stewart. --if I may?
    Mr. Johnson of Louisiana. Sure.
    Mr. Stewart. Thank you for yielding.
    Mr. Johnson of Louisiana. We have to, Jon. We have to.
    Mr. Stewart. I bend the knee to you.
    You know, when we talk about the price, the attacks on 9/11 
have been used in our government to justify all measure of 
policy and spending, to the tune of trillions of dollars.
    Just recently, there was a farm bill that was $25 billion 
that helps farmers that are in need based on policies that are 
beyond their control. I believe our government should do that. 
This is less than half of that, a third of that.
    There was a corporate tax cut that was made by our 
Congress.
    So, it is very difficult for us to hear, ``Geez, I don't 
know. You know, we are tight on money right now.'' It is a 
little cruel, because it is hard for me to understand that 
Exxon has a more urgent need than our first responder 
community.
    Mr. Johnson of Louisiana. No, nobody believes that, Jon. I 
mean--
    Mr. Stewart. But it is--
    Mr. Johnson of Louisiana. Yeah.
    Mr. Stewart. When you talk about fiscal responsibility, you 
talk about priorities. Priorities mean actions and not deeds. 
The priority of words from this Congress is always that 
character and patriotism are the priority and that we all must 
be willing to pay the price of freedom.
    This is the price. When we show up with the bill, you 
cannot take a proverbial knee.
    Mr. Johnson of Louisiana. No, you are right.
    Look, I have 30 seconds left. Let me reclaim the time 
because that is what we do under this procedure.
    Mr. Stewart. Yes, sir.
    Mr. Johnson of Louisiana. I agree with you. I am telling 
you that the action is going to follow the rhetoric, and you 
are going to get it from--
    Mr. Stewart. We should have to be here.
    Mr. Johnson of Louisiana. No, you are right. You shouldn't 
have to be here. You should not have to be here.
    The only question is, if we authorize it to 2090, do we 
have any idea what that is going to cost. Just because we need 
to know because we are doing budgeting, not because it is not 
the top priority and should be, Jon.
    We are just saying, to be good fiscal stewards of all this, 
do we even have an idea of what that ultimate number might be. 
I will leave it--that is the final question.
    Ms. Bhattacharyya. You know, the problem is, I think as Dr. 
Moline has described, there is no way for us to know how many 
people were exposed. CBO originally estimated somewhere between 
685 and 500,000 people. There is no way for us to know how many 
of those exposed will actually get sick, partly because of the 
latency periods associated with cancer.
    So, unfortunately, we have not been able to make those 
projections beyond December 18, 2020.
    Mr. Johnson of Louisiana. I just want to say, even if it 
is--I am done, Mr. Chairman. I am out of time. Even if it is an 
astronomical number, it is a responsibility of the government. 
We know that. The question is, can we just figure out what that 
number is, and that is it.
    I will yield back. I am out of time. Thank you.
    Chairman Nadler. I thank the gentleman for yielding.
    Let me just point out on time I will assume, the terrorists 
declared war on us. When we declare war on somebody, whether it 
is Japan in 1941 or Al-Qaida now, we don't have a cost 
estimate. We don't have a time estimate; we don't have a cost 
estimate. We just say we have to do it.
    We will have some sort of a cost estimate. It may not be 
accurate. Who knows? I mean, when you are talking about--but 
this is part of a war that was declared on us, and we have to 
do it.
    The cost estimate may follow, may not. CBO will guess. They 
will give us a cost. It will be a pure guess. I don't know how 
accurate that will be; they don't know either. It doesn't 
matter. This is part of a war, and it is part of something we 
have to do, and we will do it.
    The gentleman from Tenessee, Chairman of the subcommittee, 
Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair.
    I appreciate each and every one of you who have worked on 
this issue and worked at 9/11. Your testimony, Mr. Alvarez, 
Lieutenant O'Connell, everybody here, has been touching. It has 
told a story. It will be relayed to Members of Congress and to 
the public through the media and through word of mouth.
    This is an American tragedy. It was attack on America and 
you did your jobs. Thank you.
    The New York Fire Department is an institution that I think 
we all in America hold in high regard. NYFD hats are everywhere 
because people respect what the fire department did, going into 
those towers and sacrificing their lives and continuing to go 
through the debris and look for survivors.
    So, it will be done. Mr. Johnson well expressed the fact 
that we will pass this bill and we will get it done.
    I am going to defend an institution that is sometimes not 
easy to defend but is the bulwark of democracy, and that is the 
United States Congress. The United States Congress is a good 
body that represents people in their districts and comes 
together. It doesn't always come together and express itself in 
policies that I agree with, and I don't get everything I want, 
but you get something. You work together.
    This is a Subcommittee of a committee. My subcommittee, 
every single member on my side, which is eight of us, have been 
here today. Like Ms. Garcia said, I have a Financial Services 
Committee. We have other committees at the same time. Some 
Members are in their offices, busy with constituents, where 
they may be watching on television, because this is broadcast.
    The Subcommittee is only eight Members, including Mr. 
Nadler, who is ex officio of all the subcommittees, on my side, 
and I think five on Mr. Johnson's side. I know Mr. Collins was 
here, and he is a sponsor of the bill.
    Our attendance was pretty good. All these empty chairs, 
that is because this is for the full of committee. It is not 
because of disrespect or lack of attention to you. That is not 
true. We will respond, and we will see that this is funded.
    Now, Mr. Stewart, I appreciate what you have done, what you 
do, and what you said. The Congress will respond, in spite of 
the fact that we spent trillions of dollars on tax breaks for 
corporations and the wealthiest people in this country, many of 
whom are on the Upper East Side, many of whom are living in 
expensive, expensive places and didn't need the tax cut. That 
is where the money should be.
    There is a lot of money that ought to go into research on 
diseases at the National Institutes of Health to keep all of us 
alive that we are not giving because we are spending it on 
defense projects, some of which are not necessary, because they 
are being spent for the producers of the weapons and not to 
defend America.
    We need budget priorities and budget sense, but it comes 
together in a majority. There is an issue that Mr. Johnson 
raised about fiscal responsibility. We gave it away last year 
when we passed that tax bill. We gave the upper one-half of 1 
percent money they didn't need--people who you were fighting to 
protect and work for.
    So, I am not happy with Congress with that bill. I voted 
against it. I called it a tax scam, and I believe it was.
    I will work for you, and I will work for people who have 
sickness and disease and who fight for others and sacrifice 
themselves and don't make six-figure salaries. Because we need 
to look upon people who are just getting from day to day and 
trying to help others, and the police and the fire departments 
do that.
    To Mr. Alvarez, thank you so much for being here, and God 
bless you. God bless you.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman from Maryland, Mr. Raskin.
    Mr. Raskin. Thank you, Mr. Chairman.
    The first thing I want to say is that the title of the 
legislation is ``Never Forget the Heroes: Permanent 
Authorization of the 9/11 Victim Compensation Fund.'' I am 
delighted to be a strong supporter of the legislation, a 
cosponsor of the legislation.
    I am especially delighted, after hearing the incredibly 
powerful and poignant testimony of our witnesses today, that 
the word ``permanent'' is in there. Because the people in this 
room today made a permanent, lifelong commitment to the 
community of America when they went to rescue, to help, and to 
assist. We need to make a permanent, lifelong commitment to the 
people in this room--not for 5 years, not 10 years, but for as 
long as we have them with us, we must be committed to them.
    Something that Mr. Stewart said reminded me of this essay 
that I once read by George Orwell, who contrasted patriotism 
and nationalism. He said patriotism is about a true devotion to 
your community, neighbors, friends, family, to the values, your 
Constitution, and to the community. That is what patriotism is. 
Nationalism is just about sinking your individuality into some 
mythic, military hole to go to war against people from other 
countries.
    The people in the room today are real patriots. We have to 
be patriots too, Mr. Chairman. We must pass this legislation to 
demonstrate that we really do take care of our own people and 
we are devoted to the community, that is America.
    Maybe they were victims of misfortune the day that those 18 
hijackers, most of them Saudis, pumped up with religious hatred 
and extremism and zealotry, came to attack our country. So 
maybe they were victims of misfortune. If today they are not 
getting the healthcare that they need, they are not just 
victims of misfortune, they are victims of an injustice 
perpetrated by our government.
    Life is hard enough on our people, with all of the 
misfortunes, with the sicknesses, illnesses, injuries, and 
accidents, that the government should not be compounding the 
misfortunes of life with the injustice of denying people the 
healthcare that they need and they should be receiving in the 
richest society that ever existed at the richest moment that it 
was ever in existence.
    So, we are going to make this happen.
    Ms. Nordstrom, I want to ask you a question. Your story is 
very poignant to me. You are describing what happened to 
schoolchildren who were sent back to the neighborhood when it 
was no longer safe. Now you describe how many of your 
classmates are coming down with asthma, cancer, and fatal 
diseases. You have already lost some of them as you described 
being at your 20th reunion? Is that right?
    Ms. Nordstrom. Not even my 20th reunion.
    Mr. Raskin. Not even.
    Ms. Nordstrom. That is in a few years.
    Mr. Raskin. Okay. How does America or how does the city 
keep track of people in your situation? Who reached out to you? 
I assume that the fire departments and the police departments 
have a way of communicating with people, but who is keeping 
track of people in your situation?
    Ms. Nordstrom. That has been incredibly challenging. One of 
the reasons that this fund closing, when it does, will really 
be harmful for us is that a lot of people in my situation are 
not aware that they qualify for these services.
    A lot of the coverage of these services gets directed at 
responders, and because of that, a lot of survivors, especially 
those outside of the city--and we live nationally dispersed. I 
live in California. I do not live in New York City. I haven't 
for 12 years.
    A lot of us don't have local advocates on this issue. There 
is no local press coverage of this issue. So, there is a large 
group of people that may already be sick who just aren't aware 
that these services are available to them, who aren't familiar 
with how to apply to them. We really rely on word of mouth 
pretty extensively.
    Considering that a lot of the students who were present in 
Lower Manhattan during the cleanup were not actually residents 
of the neighborhood--Stuyvesant has 3,000 students, and most of 
them do not live in Lower Manhattan. There is a similarly large 
high school who also doesn't serve a resident population a 
couple blocks away. There are a lot of specialized schools in 
that area.
    A lot of people's parents didn't live in the area, they 
weren't even informed about these risks, they weren't informed 
about these services. So, we are still doing the work of 
reaching out to them now.
    Mr. Raskin. One final question. This is not a problem that 
affects only the people in New York. There are people who have 
left New York for other parts of the country. Also, we weren't 
just hit in New York. We were hit down here in our area, at the 
Pentagon. We were hit in Pennsylvania.
    Mr. Stewart, let me come to you, since I know you have been 
such a zealous advocate for the people in the room. How do we 
get all of America to understand this is a national problem, 
this doesn't affect just one isolated community geographically?
    Mr. Stewart. I am pretty sure all of America does 
understand that. I think our problem has been with the part of 
America that represents America. Our problem has been with the 
Congress and not with the American people. It is not like the 
support for this community isn't out there. Our problem has 
been that there are oftentimes just a lot of excuses.
    Look, it takes an incredible amount of effort from these 
men and women to come down here. I have been at this for 10 
years with them. John Feal has been at it for, I don't know, 14 
years. They are down here hundreds of times, spending thousands 
of hours. It is not hard to convince the American people that 
this is a no-brainer and a worthy cause. Our problem has been 
in these chambers.
    I am sorry, it is not meant as an attack on the grand 
institution of democracy. It is meant as a dumbfounded shrug 
of: I can't understand why this has been so hard and why every 
time we take one step forward something gets withheld.
    We have been to too many funerals, hospitals, and hospices. 
It is going to keep going and I think we are just at the end of 
the rope.
    Mr. Raskin. Thank you for your advocacy.
    Mr. Chairman, I yield back.
    I excuse myself only to go to the floor of the House to 
introduce legislation.
    Thank you.
    Chairman Nadler. I thank the gentleman.
    The gentlelady from Pennsylvania, Ms. Scanlon.
    Ms. Scanlon. Okay. Before I begin, I want to say thank you 
to all the witnesses. Thank you for being here. Thank you for 
sharing your stories.
    I also want to say that I am sorry, not just for the loss 
and the grief that you have endured, and those are obviously 
profound, but I am sorry that you have to be here again to 
plead your case to reauthorize the Victim Compensation Fund, a 
decision that, as Mr. Stewart says, should be a no-brainer.
    This cause is close to my heart. I have followed it over 
the years, for a couple reasons. My father-in-law, Red Stewart, 
was a volunteer firefighter in New Jersey for over 50 years. My 
brother-in-law is a medic and a lieutenant in a Rhode Island 
fire department. I have several other relatives who are sworn 
police officers.
    While I am not a New Yorker, as a resident of southeastern 
Pennsylvania when the terrorist acts on 9/11 occurred, it felt 
a little bit like we were in the eye of a hurricane, because 
things were unfolding to the north of us in New York, to the 
south of us in DC, and to the west of us in Shanksville. 
Friends, neighbors, and relatives were impacted, whether 
because they were at one of those sites or because they lost 
loved ones.
    The shock and horror of those events were really surpassed 
by the bravery, grace, and humanity of the first responders--
many of whom who are here, some of whom we lost--and everyday 
Americans as they responded to that tragedy.
    So it is that humanity that demands that Congress address 
this issue once and for all. That is why I am a proud cosponsor 
of the bill. As a new Member of Congress, one who ran because 
of anger over why things that seemed so obvious aren't getting 
done, I hear you. I look forward to swift passage of permanent 
reauthorization of this bill.
    Just a couple quick questions.
    Lieutenant O'Connell, you have already received your award 
from the VCF. Why are you here to testify today about this?
    Mr. O'Connell. I am here because I did receive my award and 
I have seen people fall sick and die right in front of me that 
haven't.
    I believe we lost about 20-something people last month, 
that their families--we have to sit there in front of them, 
somebody who actually has a wife and three children at home, 
knowing that they are taken care of. I am looking at somebody 
else's wife and children, and they don't know where their 
future lies. That is why I am here.
    Ms. Scanlon. That is the common humanity that says we 
should pass this. Thank you.
    I yield back.
    Chairman Nadler. I thank the gentlelady.
    The other gentlelady from Pennsylvania, Ms. Dean.
    Ms. Dean. Thank you, Mr. Chairman.
    I am pleased to be here today, as heartbreaking as the 
stories are. Please understand that I, too, am a new Member of 
Congress. I, too, am baffled that we are even having this 
conversation or that we have forced you to come here and share 
your heartbreak, some of you not well, struggling for your own 
health.
    So don't misinterpret, if you see people coming in and out 
of here. Some of us have other hearings. We are just trying to 
balance and do the work of both. Do not misinterpret that we do 
not care. We care. We think this is a grievous wrong, that you 
have to come and ask for reauthorization. It is an absolute 
insane, grievous wrong, and we get it. This new majority, I 
believe, will take action.
    I wanted to start with Ms. Henry.
    I think you are joined by your children behind you. I see 
the heartbreak in them, in the pictures they carry. I have to 
tell you, I was so touched by the way you talked about your 
husband and how proud he was of his work.
    Ms. Henry. Thank you.
    Ms. Dean. Isn't that what it is all about?
    Ms. Henry. That is what it is all about.
    Ms. Dean. Proud American work, cleaning trucks. You said 
maybe a simple task, but not so simple at all.
    Ms. Henry. No.
    Ms. Dean. He gave of himself, all of himself.
    Can you tell us how your family will be impacted if you 
should receive only a 30 percent award for his loss?
    Ms. Henry. Well, my son just turned 18 after his father 
passed away. He was not there to see his 18th birthday. College 
right now to be paid for him. We have other bills, our mortgage 
has to be paid, and other things. He was the breadwinner for 
the family. Right now, I have to stand in that position, where 
whatever he was coming home with, now we do not have it. With 
the little I am making; I have to be careful how I spend it now 
and make ends meet for our family.
    Ms. Dean. Yes. I keep thinking of what the Special Master 
has to go through to try to slice this up and try to be as 
equitable as possible. It should not be that way at all.
    Ms. Henry. Thank you. Thank you.
    Ms. Dean. Again, thank you for your family.
    Ms. Henry. Thank you.
    Ms. Dean. Ms. Nordstrom, I think your testimony is 
particularly compelling. Can you describe more about what 
notices you were given, even as young students, or your parents 
were given, or your teachers were given about the status of the 
health in your school?
    Ms. Nordstrom. Once we were already back at the school, we 
received a number of cryptic warnings. We started to get notes 
home that said don't drink out of the water fountain, and we 
were suddenly not allowed to leave the building for lunch, 
which was a privilege that we had enjoyed before that. For some 
reason, it was supposed to be okay that we walked to and from 
the subway in that same air, but apparently eating lunch was 
not going to be safe.
    As soon as we were back, a sort of contentious discussion 
broke out about whether we should be there or not. But, we 
didn't hear from any agency in that discussion. That was 
obviously a discussion that was happening between government 
officials, parents, and teachers at the school.
    So we sort of witnessed a lot of information come out late 
in the game. After the parents' Administration started to 
investigate things, that is, the parents Administration is who 
discovered that the air quality at the barge was as bad as the 
air at Ground Zero on many days. It was the parents association 
that discovered that the carpeting and upholstery in our 
auditorium was contaminated. It was the parents association 
that pushed the board of education to finally replace the 
filters in our ventilation system. That that was supposed to be 
done before we went back and did not get done. All of that took 
months to unfold.
    So, by the end of the year, it was pretty clear that we 
should have never been there. We never really received that 
information at a point where we could have acted on it. 
Certainly, if the government officials charged with our care 
had been honest about the situation, I think it would been 
appropriate to remove us from the premises.
    No decision like that ever got made. Instead, you would 
just see small steps, where they were going to hose down the 
debris, and then, they were going to replace the carpeting in 
the theater but not the seats. Small steps like that got made, 
but nothing substantial until at the end of the year, looked 
back and realized, oh, God, we shouldn't have been here.
    Ms. Dean. It sounds like malpractice to me, that you would 
have been allowed to be educated there.
    Then, Mr. Alvarez--I wish I could talk to all of you. My 
time is limited.
    Mr. Alvarez, I just wanted to offer you my thoughts, 
prayers. The strength that you show, it is extraordinary. You 
represent this audience filled with first responders and 
volunteers.
    I was impressed by you saying you didn't want anything for 
yourselves, you just wanted to do the work and help others.
    Mr. Alvarez. Yes.
    Ms. Dean. I guess, can you just tell me, other than the 
obvious, provide full funding, permanent funding, what else 
would you like us to know?
    Mr. Alvarez. Well, I have been lucky because I received my 
VCF payment. With my New York City Police Department disability 
check, I am doing okay. There are others out there who aren't 
doing okay, who don't have a disability, who count on that 
money to pay their bills. It is tough on them. It is really 
tough on them.
    Ms. Dean. I will just close with saying, may we be guided 
by your selflessness.
    Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. Thank you.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the gentleman who just came into 
the room.
    Mr. Chairman, thank you very much, and to Mr. Cohen. Thank 
you to the Ranking Member.
    I was here on 9/11. I am reminded of the immediate work of 
Jerry Nadler and Carolyn Maloney and Peter King. My 
recollection is that I stood with them in the first 
introduction, along with their Senators.
    I was also here on the day of the incident. Frankly, in the 
United States Capitol, no one knew what was going on. All we 
heard was screaming and banging on the door, you needed to get 
out. What a small experience compared to those of you in this 
room.
    As we fled as Members out of the Capitol, no one had any 
information. No BlackBerrys existed. Flip phones did not work. 
As we escaped, shoes falling off, we could see the billowing 
smoke from the Pentagon. A plane had hit.
    Rumors abounded. It was going to hit the White House, the 
State Department, and the United States Capitol. Certainly, in 
that instance, the first responders that we had, the Capitol 
Police, were trying to shuttle Members and leadership.
    Then the stories began to come. Even here in Washington, 
you wondered where your staff were, whether the buildings were 
going ready to be hit.
    If anyone can self-contain those experiences, just a slight 
memory, there should be nothing more but clean sailing of this 
legislation out of the House.
    My belief, make it a suspension. What does that mean? It 
goes to the floor and you pass it immediately. Then it goes to 
the Senate, and there is no procedural tomfoolery. You pass it. 
They can pass it on unanimous consent. Then it goes to the 
President of the United States, and all he has to do is sign 
that bill to give life to people who are in need. I don't see 
why that cannot be our process.
    As a Member of the United States Congress during that time, 
I desired greatly, in the midst, to get to Ground Zero. The 
time that I went, flights were not active and we took the 
train.
    When we actually got on the ground--I would never make the 
point that I was there during rescue. I was there during 
recovery. During that time, I watched with my own eyes men go 
in and out and in and out, finding remains, finding loved ones, 
finding their fellow comrades. I think you know I was there. 
You blew a whistle, and they would come with the gurney. They 
would stand in silence. They would take those remains. As they 
did so, you could still see in pockets the smoke and debris.
    I only want to say in this instance that I see no reason 
for us to stop on this dime. We need to move.
    Let me ask the Special Master, in the short time that I 
have, in the claims that you have had and the overwhelming that 
you have seen, can you tell me whether there is any tomfoolery 
with those who have come to apply? Should we be concerned about 
the need? Should we question the lieutenant or the FBI director 
or the mother and wife that is grieving? Should we question any 
of those? Should we look to Mr. Alvarez and be concerned about 
anything that he is going through that is not real? Are you 
facing the devastation of having to say ``no'' to people who 
are in need?
    Special Master?
    Ms. Bhattacharyya. Thank you, Congresswoman.
    The VCF, under the Zadroga Act, has not documented any 
instance of fraud in a paid claim.
    We have very robust standards and procedures in place. 
Obviously, as a component of the Justice Department, we take 
fraud very seriously. We work very closely with our inspector 
general's office to investigate any suspicion of fraud. And we 
have numerous internal procedures in place, including 
independent data verification with Federal, State, and local 
entities, to provide independent, third-party verification of 
the data that we receive.
    We have never documented any instance of fraud in a paid 
claim.
    Ms. Jackson Lee. I am an original cosponsor of this bill. I 
want to thank the proponents, as I said. I think that is 
important to put on the record.
    Jon Stewart, thank you. I have watched you over the 
decades.
    All I should suggest: Pass the bill. Pass it out of the 
Senate. Give the money. Never let these people look one moment 
to see that they are not great Americans and patriots. They 
deserve to be honored. Let's do it now.
    I yield back.
    [Applause.]
    Chairman Nadler. I thank the gentlelady.
    The gentleman from Virginia, Mr. Cline.
    Mr. Cline. Thank you, Mr. Chairman. Thank you for 
championing this legislation.
    I want to thank all our witnesses for being here, for 
everyone in the audience who is here to advocate for this 
legislation. It is an important bill.
    I see some familiar faces in the audience who came to visit 
me about a month ago to talk about this bill, to educate me, as 
they have been educating all Members, about the importance of 
continuing this important fund and providing for these heroes 
who are here and home and the families of those who served 
their country not just on September 11 but in the days, weeks, 
months, years following that fateful day.
    I want to thank the gentlelady for her comments. Because I 
recall that day well because I, too, was in this building, as a 
staffer. We weren't rushed to a safe room by the Capitol 
Police, as some of the Members were. We were given guidance to 
get your staff out. I was a chief of staff, and we were told, 
``Get them out.''
    So, however we needed to--walk, run--we evacuated, not 
knowing what was going on, but seeing the smoke coming from the 
Pentagon. There was talk of a bomb at the State Department. 
There was talk of more planes in the sky.
    We don't know where Flight 93 was headed, but we know it 
was headed in this direction. For the heroes who took action 
that day and said, ``let's roll,'' we are eternally grateful 
for their heroism.
    For those who, in the 18 years since, the tens of thousands 
of men and women, first responders, relief workers, local 
residents, whose testimony was so moving--and I read it last 
night, but to hear it in person--Ms. Henry, I know that was 
very hard for you to articulate just how important this bill is 
to you and your family, but it has definitely had an impact.
    It has an impact for my district as well. We have 29 from 
the Sixth District of Virginia who are on the list of having 
benefited from this fund.
    We have to make sure that not only every year on September 
11 that we never forget but every day we owe it to the men and 
women here, we owe it to the men and women who sacrificed on 
that day and in the weeks after to renew this fund.
    So, I appreciate all the hard work. Your education had an 
impact on me, not just because of my experiences on 9/11 but 
also in learning about your stories, learning about the stories 
of each and every first responder, each and every construction 
worker--Ms. Henry, your husband. That is why I am glad to be a 
cosponsor of the bill.
    Ms. Henry, you spoke of your husband's pride in his work, 
the job that he was doing. He knew he was a part of something 
bigger, of something that was a moment in our Nation's history 
that will never be forgotten. I know that he brought that home 
with him at the end of his day. Can you speak to that pride 
with which he did his job?
    Ms. Henry. When my husband was transferred over there, I 
don't think--we didn't have anything in our mind that he 
would--all this debris and all these things was out there, that 
we would get that. He went to work and he went to work with 
pride.
    I remember my son, Justin, being almost 2--almost 1 year 
old, and I remember he would sit in the back of the van. Every 
Saturday morning, we would drop him at work, and at about 2 or 
3 o'clock, we would go back and pick him up. On a Saturday, I 
don't work, so it was my pleasure to take him down there. He 
was happy to work there.
    I am telling you, I have the badge, that badge he had they 
gave him to enter that building. He never threw it away. He 
held on to that badge, and he said that is his memory. For 
anybody talk about 9/11, he has that to tell them, yes, I did 
work at 9/11. I wish I had that badge to show it to you right 
now. That is the badge we had, that is not a badge, a pass. He 
had to scan that and walk in. The pass that we have, that 
reminded us.
    My husband going through all his sickness, we never thought 
that it was 9/11 until we met Dr. Demopoulos from the North 
Shore Hospital, when they referred us to him. In talking to 
him, he said, what your husband had, did he work at 9/11? Then 
it came to my--my husband said no, because he didn't remember. 
But going back into his pile of papers and stuff, here comes 
the badge, his pass. And, like, oh, my God, he did work there.
    Then we brought that--and that is how we spoke to Matt. 
Matt have us right here. I am thankful, he was the first to 
help us. Because my kids, they miss their dad so much. His only 
daughter, we don't know if she is going to walk down the aisle 
one day, what am I going to do? Maybe Justin or Kendall, his 
oldest son--Kendall is not here with us--will have to step in 
for their father, step in as a father.
    My family, who is stepping in as father--this morning, we 
woke up. We drive up last night. All we could talk about was if 
he was there. He is our navigator. We don't need a navigator. 
Anywhere we go, he knows. ``Make a left, make a right,'' and we 
would be right there. We went to Canada, we went to Georgia for 
the first time, and we were like, ``We don't know where we 
are.'' And he said, ``Don't worry. Make a left. Make a right.'' 
There is a circle in Georgia, we keep going, and he tell me, 
``When you go in a circle, take the first right, take the first 
left.'' And that is what it is.
    Sightseeing on a Saturday morning, he would say, ``Wake up, 
wake up. Let's go out.'' ``Where are we going to?'' ``Anywhere. 
Just jump in the car.'' We would just leave. That is how we 
discovered Pennsylvania. That is how we went to different 
places. We miss that. Right now, we want to go out, but he is 
so much in our memory.
    Driving up last night was not an easy task. It was not 
easy. I am so happy that we have Justin--Justin just got his 
driver's license. He was the one who showed him some of the 
shortcuts. Although, one day he did it, he tell Justin, 
``Follow the police car.'' And as Justin was, ``Oh,'' Justin 
realized, I am following the police car and I am going to 
somewhere. Justin checking [inaudible], all laughing. You don't 
have a memory anymore. You making Justin follow the car going 
to the wrong direction, and we had a good laugh at it.
    So, coming up last night, Justin is driving, and we were 
just thinking, if Daddy was there, he would tell you, make a 
left, overtake this car, take this next--and the police won't 
catch you. He would say, no, Dad, he would tell me to the stop, 
the police are down there.
    We really miss him. I thought my husband did enjoy working 
at Ground Zero. That was his pride. He told everybody, I did 
work at Ground Zero, I know what it is like.
    So, we really, really, really, really, miss him.
    Mr. Cline. Thank you very much.
    Ms. Henry. Thank you.
    Mr. Cline. I hope that we can pass this bill.
    I appreciate everyone for their testimony today. I am sorry 
I wasn't here for each and every one of your testimony. I have 
another hearing in Education and Labor, and so we are back and 
forth. To each and every one of you who was here, I appreciate 
your testimony and all of the work you have done.
    Let's pass this bill.
    Thank you.
    Chairman Nadler. I recognize the gentlelady from Texas for 
a unanimous consent request.
    Ms. Jackson Lee. Yes, Mr. Chairman. Thank you.
    First, these are all good people, and I think they are all 
going to be committed to you.
    I wanted to ask unanimous consent to put in the record an 
article that said, ``Officials Demand Permanent Funding for 9/
11 Victims Compensation to Stem `Escalating Crisis.' ''
    I think we hear your cry and we are going to listen.
    I ask unanimous consent to place it in the record.
    Chairman Nadler. Without objection, the document will be 
placed in the record.
    [The information follows:]
      

                     MS. JACKSON LEE FOR THE RECORD

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. This concludes today's hearing.
    I want to remind people that tomorrow in this room we will 
have a full Committee meeting for the purpose of marking up and 
reporting to the House floor this bill tomorrow. We will move 
the bill to the floor tomorrow. We will get this done as 
quickly as possible. I do think we will get it done.
    I want to thank our witnesses. I want to thank all the 
first responders and others for attending and for all the work 
that you have done over the years and for your sacrifices.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Chairman Nadler. Without objection, the hearing is 
adjourned.
    [Whereupon, at 12:31 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
